<html>
<title> - THE FY 2018 FOREIGN AFFAIRS BUDGET</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    THE FY 2018 FOREIGN AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2017

                               __________

                           Serial No. 115-61

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
        
        


   Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-840PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a>                               
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Rex W. Tillerson, Secretary of State, U.S. 
  Department of State............................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Rex W. Tillerson: Prepared statement...............     7

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Material submitted for the record...    61
The Honorable Tulsi Gabbard, a Representative in Congress from 
  the State of Hawaii: Material submitted for the record.........    70
The Honorable Robin L. Kelly, a Representative in Congress from 
  the State of Illinois: Artical submitted for the record........    79
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    81
The Honorable Adriano Espaillat, a Representative in Congress 
  from the State of New York: Prepared statement.................    83
Written responses from the Honorable Rex W. Tillerson to 
  questions submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    84
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    85
  The Honorable Dana Rohrabacher, a Representative in Congress 
    from the State of California.................................   144
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................   145
  The Honorable Steve Chabot, a Representative in Congress from 
    the State of Ohio............................................   150
  The Honorable Gregory W. Meeks, a Representative in Congress 
    from the State of New York...................................   152
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................   158
  The Honorable Albio Sires, a Representative in Congress from 
    the State of New Jersey......................................   168
  The Honorable Jeff Duncan, a Representative in Congress from 
    the State of South Carolina..................................   172
  The Honorable Gerald E. Connolly...............................   185
  The Honorable Daniel Donovan, a Representative in Congress from 
    the State of New York........................................   194
  The Honorable William Keating, a Representative in Congress 
    from the Commonwealth of Massachusetts.......................   197
  The Honorable Ann Wagner, a Representative in Congress from the 
    State of Missouri............................................   204
  The Honorable David Cicilline..................................   207
  The Honorable Brian K. Fitzpatrick, a Representative in 
    Congress from the Commonwealth of Pennsylvania...............   226
  The Honorable Ami Bera, a Representative in Congress from the 
    State of California..........................................   228
  The Honorable Lois Frankel, a Representative in Congress from 
    the State of Florida.........................................   233
  The Honorable Tulsi Gabbard....................................   234
  The Honorable Joaquin Castro, a Representative in Congress from 
    the State of Texas...........................................   237
  The Honorable Dina Titus, a Representative in Congress from the 
    State of Nevada..............................................   243
  The Honorable Norma J. Torres, a Representative in Congress 
    from the State of California.................................   245
  The Honorable Bradley S. Schneider, a Representative in 
    Congress from the State of Illinois..........................   248
  The Honorable Adriano Espaillat................................   252
  The Honorable Ted Lieu, a Representative in Congress from the 
    State of California..........................................   255

 
                   THE FY 2018 FOREIGN AFFAIRS BUDGET

                              ----------                              


                        WEDNESDAY, JUNE 14, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. Before we say or do anything else today, I 
want to pause to extend our thoughts and our prayers for the 
well-being of Whip Scalise and our colleagues, police, and 
staff who were attacked by a gunman this morning in Virginia. 
Several members of this committee were there. This is a sad day 
for our country. We still don't have all of the details, but we 
do know that there are those who want to use acts of violence 
to create chaos, to disrupt our democracy. The American people 
will not let them win. So after deliberation with the ranking 
member, we have decided to proceed.
    The Secretary has a very challenging schedule. Given these 
circumstances and the delayed start of our hearing, I want to 
appeal to members to attempt to use less than their full 5 
minutes so that more of our colleagues have a chance to 
participate and I will be abbreviating my opening statement.
    Today, Secretary Tillerson will testify on the 
administration's budget and reorganization plans for the 
Department of State.
    First off, Mr. Secretary, let me welcome you to this 
committee. This committee and your Department manage an 
essential responsibility for our Government, set at its 
founding. And that is defending our Nation.
    The committee strives to be bipartisan. We are fortunate to 
have a ranking member, Mr. Engel, who shares this approach. We 
look forward to working with you, Mr. Secretary. We wish you 
success in your tenure.
    For generations, America has been the leader of the world. 
This has required great sacrifice. But our commitment to 
stability, to the rule of law, to open markets, and human 
rights, and our work through alliances have all paid off 
greatly. We have made mistake, no doubt, sometimes by 
overreaching in our commitments and sometimes by not reaching 
at all. But our Nation has certainly been a force for good. If 
we do not lead in security and commerce as well as in values 
and in ideas, the vacuum will be filled by others, including 
jihadists and others, wishing us grave harm.
    Leading takes resources. Sufficient resources are needed 
for our military, for sure, but also for our diplomats working 
to end the many conflicts impacting our security. That is what 
the generals say. In today's well-connected age, in which 
threats can come from anywhere, we need a very broad diplomatic 
presence and that takes resources too, especially to keep our 
diplomats safe.
    Resources are also needed to support our humanitarian 
relief and to support development. Their work abroad benefits 
America at home. Consider that a modest emergency investment in 
West Africa's health stopped cold what looked like an emerging 
Ebola panic in our country a few years ago.
    Mr. Secretary, I am confident that you will find new 
efficiencies in your Department. There is waste to attack. But 
many here remain concerned by the hand you were dealt with the 
budget and look forward to strengthening it. Congress also has 
a responsibility not to hamstring the Department with mandates 
and with restrictions. And these have accumulated over years, 
compounding your management challenges.
    For our partnership to succeed, we need to communicate, 
often. Too often, administrations go it alone, as frankly, the 
last administration did. Iran and Cuba policy are examples. Let 
us break that pattern.
    And I will now turn to Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman. I know that 
the shooting in Alexandria this morning is on all our minds. It 
is shocking. We are all hoping for the best for our colleague, 
Steve Scalise, the police officers, and others who were victims 
of the attack. We wish them a speedy recovery and we are 
thinking of their loved ones this morning.
    Mr. Secretary, we are glad to have you here. I wish you 
well, but I have to tell you that I am deeply skeptical about 
this budget, which in my view is part of a foreign policy 
strategy that would cripple American diplomacy and development 
efforts around the world. This strategy has been carried out 
first and foremost by an action with an initial purge that 
pushed out some of our most senior and accomplished career 
diplomats. This administration has eliminated years of 
expertise in one fell swoop and, with few exceptions, the 
President simply has not nominated anyone to help you run the 
Department.
    Mr. Chairman, I ask that my graphic be displayed. This is 
an organizational chart of the State Department. The three dark 
green boxes are President Trump's confirmed nominees. The light 
green boxes are officials in place in the last administration. 
Yellow boxes are nominees awaiting Senate action. And all the 
red boxes are positions for which the President hasn't even 
submitted a nomination. That is a lot of red boxes, far behind 
where Presidents Bush and Obama were at this point and that 
doesn't cover the dozens of vacant ambassadorships. We should 
all keep this in mind next time there is talk about obstruction 
in Congress. People have not been confirmed, not because there 
is obstruction, because they haven't been submitted.
    Now career diplomats, keeping the seats warm, are capable 
and devoted public servants, but they aren't able to direct our 
foreign policy. What is the President's approach to Russia 
hacking our election or nonproliferation or human trafficking 
or Africa or the Arctic? When will we have the Under 
Secretaries and Assistant Secretaries and Ambassadors at large 
to put these policies in place?
    The second indication of the administration's view of the 
State Department is this document. This is the budget, The 2018 
State Department Budget, submitted to Congress by the Secretary 
of State. It calls for a 32 percent cut to our international 
affairs budget. I have never seen a budget proposal so reckless 
in all the years I have been here. It is so insulting to our 
personnel and so quick to hit bipartisan opposition.
    Mr. Secretary, when we spoke, you told me that you hoped to 
put the State Department on the glide path to reduce spending 
levels. A one third cut is more like a nose dive. Imagine being 
an American diplomat learning that this is the value the 
administration places on your service. Imagine waking up every 
morning in a dangerous place on the other side of the world 
knowing that the officials responsible for your safety haven't 
even been nominated, and that America's top diplomat, which is 
you, Mr. Secretary, was coming here to ask us for a 32 percent 
budget cut.
    Some consequences of this budget will hit us down the road 
if we fail to invest in diplomacy and development now. The 
conflicts we don't prevent will come back to us as wars we will 
need to fight. Senator Lindsey Graham said it well and I quote 
him, ``If we implemented this budget, we have to retreat from 
the world and put a lot of people at risk.'' He said we would 
have ``a lot of Benghazis in the making if we actually 
implemented the State Department cuts.'' He is right. The 
budget cuts Embassy security by more than $1 billion, 62 
percent--Embassy security cut 62 percent. So fortunately on 
this point, Congress retains the power of the purse, so we will 
have the last word on this issue.
    So I think that we need a lot of clarity on this and I 
think this committee should keep pressing these issues until we 
have the answers we need. I am going to stop now, Mr. Chairman, 
because we have agreed to shorten our statement, but I will 
submit the rest of my statement for the record.
    Chairman Royce. Thank you very much, Mr. Engel. This 
morning, we are pleased to be joined by Mr. Rex Tillerson. He 
is the 69th Secretary of State. Prior to his appointment, the 
Secretary spent 40 years at ExxonMobil, culminating as the 
chairman and Chief Executive Officer. Secretary Tillerson also 
has long been involved with the Boy Scouts of America, most 
recently serving as the Boy Scouts' National President. Mr. 
Secretary, welcome to our committee.
    Without objection, the witness' full prepared statement 
will be made part of the record. Members are going to have 5 
calendar days to submit any statements or any questions they 
might have of the Secretary or any extraneous material for the 
record.
    Also, we want as many members as possible to have a chance 
to question the Secretary, so to accomplish that, I would just 
ask that everyone respect the time limit and that means leaving 
an adequate amount of time for the Secretary to answer your 
questions. Nothing requires full use of your time. And we will 
begin with Secretary Tillerson's testimony.

   STATEMENT OF THE HONORABLE REX W. TILLERSON, SECRETARY OF 
                STATE, U.S. DEPARTMENT OF STATE

    Secretary Tillerson. Thank you, Chairman Royce, Ranking 
Member Engel, and distinguished members of the committee.
    Of course, we were all stunned by the news of the shooting 
involving your colleagues, members of congressional staff, and 
Capitol Police. Congressman Scalise is a friend of mine. He is 
a friend and represents many friends of mine back in Louisiana. 
My prayers and those of my colleagues at the State Department 
are with the injured and with those members of law enforcement 
who responded to this morning's attack.
    Today, I would like to continue the conversation that we 
have started about the administration's State Department and 
USAID budget requests for Fiscal Year 2018.
    Before I begin my testimony on the budget, I would like to 
offer a point of view on the Russian sanctions legislation 
currently being considered by the Congress. I certainly agree 
with the sentiment that has been conveyed by several members 
from both parties that Russia must be held accountable for its 
meddling in U.S. elections. I would urge Congress to ensure any 
legislation allows the President to have the flexibility to 
adjust sanctions to meet the needs of what is always an 
evolving diplomatic situation. Essentially, we would ask for 
the flexibility to turn the heat up when we need to, but also 
to ensure that we have the ability to maintain a constructive 
dialogue.
    As we all know, America's global competitive advantages and 
standing as a leader are under constant challenge. The 
dedicated men and women of the State Department and USAID carry 
out the important and often perilous work of advancing 
America's interests every single day. That mission is 
unchanged. However, the State Department and USAID, like many 
other institutions here and around the world, have not evolved 
in their responsiveness as quickly as new challenges and 
threats to our national security have changed and are changing. 
We are challenged to respond to a post-Cold War world that set 
in motion new global dynamics, and a post-9/11 world 
characterized by historic new threats that present themselves 
in ways never seen before, enabled by technological tools that 
we have been ill-prepared to engage. The 21st century has 
already presented many evolving challenges to U.S. national 
security and economic prosperity. We must develop proactive 
responses to protect and advance the interests of the American 
people.
    With such a broad array of threats facing the United 
States, the Fiscal Year 2018 budget request of $37.6 billion 
dollars aligns with the administration's objective of making 
America's security our top priority. The first responsibility 
of government is the security of its own citizens, and we will 
orient our diplomatic efforts toward fulfilling that 
commitment. While our mission will also be focused on advancing 
the economic interests of the American people, the State 
Department's primary focus will be to protect our citizens at 
home and abroad.
    Our mission is at all times guided by our longstanding 
values of freedom, democracy, individual liberty, and human 
dignity. The conviction of our country's Founders is enduring, 
that ``all men are endowed by their Creator with certain 
unalienable rights.'' As a Nation, we hold high the aspiration 
that all will one day experience the freedom we have known. In 
our young administration's foreign policy, we are motivated by 
the conviction that the more we engage with other nations on 
issues of security and prosperity, the more we will have 
opportunities to shape the human rights conditions in those 
nations. History has shown that the United States leaves a 
footprint of freedom wherever it goes.
    Ensuring the security and prosperity of the American people 
and advancing our values has necessitated difficult decisions 
in other areas of our budget. The Fiscal Year 2018 budget 
request includes substantial funding for many foreign 
assistance programs under the auspices of USAID and the State 
Department, but we have made hard choices to reduce funding for 
other initiatives. Even with reductions in funding, we will 
continue to be the leader in international development, global 
health, democracy and good governance initiatives, and 
humanitarian efforts. If natural disasters or epidemics strike 
overseas, America will respond with care and support. I am 
convinced we can maximize the effectiveness of the programs and 
continue to offer America's helping hand to the world.
    This budget request also reflects a commitment to ensure 
every tax dollar spent is aligned with the Department and 
USAID's mission critical objectives. The request focuses the 
State Department and USAID efforts on missions which deliver 
the greatest value and opportunity of success for the American 
people. The State Department and USAID budget increased over 60 
percent from Fiscal Year 2007, reaching a record high $55.6 
billion in Fiscal Year 2017. Recognizing that this rate of 
increase in funding is not sustainable, the Fiscal Year 2018 
budget request seeks to align the core missions of the State 
Department with historic funding levels. We believe this budget 
also represents the interests of the American people, including 
responsible stewardship of the public's money.
    I know there is intense interest in prospective State 
Department and USAID redesign efforts. We have just completed 
collecting information on our organizational processes and 
culture through a survey that was made available to every one 
of our State and USAID colleagues. Over 35,000 surveys were 
completed, and we had held in-person listening sessions with 
approximately 300 individuals to obtain their perspective on 
what we do and how we do it. I met personally with dozens of 
team members who spoke candidly about their experiences. From 
this feedback we have been able to get a clearer overall view 
of our organization. We have no preconceived outcomes, and our 
discussions of the goals, priorities, and direction of the 
State Department and USAID were not token exercises. The 
principles for our listening sessions and subsequent evaluation 
of our organization are the same as those which I stated in my 
confirmation hearing for our foreign policy: We will see the 
world for what it is, be honest with ourselves and the American 
people, follow the facts where they lead us, and hold ourselves 
and others accountable. We are still analyzing the feedback we 
have received, and we expect to release the findings of the 
survey soon. From all of this, one thing is certain: I am 
listening to what my people are telling me are the challenges 
facing them and how we can produce a more efficient and 
effective State Department and USAID. And we will work as a 
team and with the Congress to improve both organizations.
    Throughout my career, I have never believed, nor have I 
ever experienced, that the level of funding devoted to a goal 
is the most important factor in achieving it. Our budget will 
never determine our ability to be effective, our people will. 
My colleagues at the State Department and USAID are a deep 
source of inspiration, and their patriotism, professionalism, 
and willingness to make sacrifices for our country are our 
greatest resource. I am confident that the U.S. State 
Department and USAID will continue to deliver results for the 
American people.
    I thank you for the time, and I am happy to answer your 
questions.
    [The prepared statement of Secretary Tillerson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you very much, Mr. Secretary. This 
committee has worked to make the State Department more 
efficient. In December, as you know, the first State 
Authorities Bill in over a decade was signed into law. That was 
our work product. We stand ready to work with you to reform the 
Department and on reorganization. On this question I just ask 
that you commit to intensified consultation between your staff 
and the committee in terms of plans for reform.
    Secretary Tillerson. We certainly will do that and welcome 
and seek your input as we go about this.
    Chairman Royce. Thank you. I only have one question and it 
goes to the issue of North Korea, Secretary Tillerson. This 
situation, we were encouraged yesterday first to hear news that 
Otto Wormbier would be returned to the United States, but then 
we found out about his condition and were horrified to learn 
that he was in a coma. This is outrageous. And on Monday, we 
heard Secretary Mattis call North Korea ``the top security 
threat to the United States.''
    You have been working a strategy, I know, to ratchet up 
pressure on the regime. Last Congress, we passed and signed 
into law a comprehensive North Korea sanctions bill to go after 
those assisting the regime. And then recently we passed out of 
this committee again another piece of legislation, this one to 
attack North Korea's use of overseas labor, indentured 
servitude in which the check goes to the regime and they use it 
for hard currency and they can use it for their nuclear weapons 
program.
    We heard two kind of mixed reports on China's cooperation 
on this. There is a new report out this week and it shows that 
by cracking down on a relatively small number of interlinked 
Chinese companies that deal with North Korea, we could really 
crank things up and reportedly the administration has asked 
China to act on some ten entities. If Beijing doesn't act, are 
we prepared with the sanctions we put on the books now, to act 
unilaterally with third-party sanctions in order to cut off the 
hard currency? This a very expensive program they are running. 
It costs them billions and billions of dollars a year and 
frankly they don't make much of anything, so they need the hard 
currency coming in in order to fund this program. And this is 
what I wanted to ask you.
    Secretary Tillerson. Thank you, Chairman. I am familiar 
with the reports you are referencing. Treasury Department also 
has that report and we will examine the study that was done and 
the results they found.
    The approach we are taking with North Korea, as you are 
aware, is one of eliciting countries all over the world to 
support us in putting pressure on the regime and Pyongyang to 
change and alter their position and their view before we are 
willing to sit down and conduct discussions with them.
    Clearly, China is the capstone to achieving this kind of 
pressure. This was a topic of significant discussion in 
President Xi and President Trump's summit in Mar-a-Lago. The 
communications had been very clear. Our expectations have been 
very clear with the Chinese. Their cooperation, I would say, 
has been notable, but it has been uneven. And we continue that 
dialogue with the Chinese, specifically around their actions 
that support revenue streams to North Korea, but also taking 
action against entities inside of China that may be supporting 
revenue streams as well.
    We will be having another high-level dialogue next week 
when Secretary Mattis and myself meet with our counterparts 
here in Washington, and that will be one of the first topics on 
the agenda. We have made it clear to them and we have provided 
them lists of entities that we believe they need to take action 
against. We have asked that they take the action, but President 
Trump has also been very clear with President Xi that if they 
either don't want to take the action or they do not take the 
action, that we will act on our own.
    Chairman Royce. I concur. We can't have dialogue forever, 
Mr. Secretary. Thank you and I go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. Mr. Secretary, I just 
want to say that I heard what you said, but I don't find it 
compelling that we can operate the State Department and 
diplomacy with a 33 percent cut, a one-third cut. It just seems 
to me like it is--I know you will do the best with what you 
have, obviously, it is showing where priorities are not and 
priorities don't seem to be with the State Department, with 
diplomacy. I just want to say that.
    Because we are short with time, Mr. Secretary, I would like 
to start by getting you to respond to a series of questions, 
but I would like just a yes or no, if you can.
    As you may know--and we chatted a little bit before--this 
committee under Chairman Royce and myself has a long-standing 
bipartisan tradition and we have worked closely with both 
Republican and Democratic administrations. So I was taken aback 
by the Trump administration's apparent decision to ignore 
oversight requests of Democratic Members of Congress.
    In a letter to the President, Senator Grassley called the 
administration's departure of long-standing practice nonsense, 
and I was pleased that Homeland Security Secretary Kelly 
rejected this guidance by saying and I quote him, ``Regardless 
of who the letter comes from and it doesn't have to just come 
from a ranking member or chairman, we will respond to any 
congressional inquiry.'' That is a quote from him.
    So I would like to ask you, Mr. Secretary, will you join 
Secretary Kelly in committing to respond to congressional 
inquiries and information requests regardless of the political 
party of the member inquiring?
    Secretary Tillerson. I already have and I will.
    Mr. Engel. Thank you. Can I have your commitment that you 
will direct the Department to respond to requests for 
information made by the committee staff as the designees of the 
chairman and ranking member?
    Secretary Tillerson. Indeed, through the appropriate 
channels and processes.
    Mr. Engel. Thank you. Mr. Secretary, a member of your staff 
informed my staff that the reorganization you are planning for 
the State Department will require statutory changes. So I am 
glad to know that that is the State Department's position 
because I agree with that.
    When your reorganization assessment is complete, will you 
commit to coming to this committee, the Foreign Affairs 
Committee, which has oversight and authorizing responsibilities 
for the State Department, with any requests you have for 
organizational changes at the Department?
    Secretary Tillerson. Yes, and we would expect to work with 
you on that as we are developing those.
    Mr. Engel. Thank you. It was recently reported that within 
the first few weeks of the administration, a top White House 
aide attempted unsuccessfully to lift economic sanctions 
imposed on Russia in response to the illegal occupation of 
Crimea and interference in the 2016 Presidential Election. This 
followed repeated contacts with the Russians by Jared Kushner, 
Michael Flynn, Jeff Sessions, and others. So do you accept the 
conclusion, Mr. Secretary, of the Intelligence Committee that 
Russian criminally interfered in last year's election?
    Secretary Tillerson. Yes, I do. And I have no knowledge of 
any of those efforts that you mentioned.
    Mr. Engel. Do you believe that it is in the U.S. interest 
to relax sanctions on Russia before she has fully complied with 
the Minsk framework and left Crimea?
    Secretary Tillerson. I think it is important that we be 
given sufficient flexibility to achieve the Minsk objectives. 
It is very possible that the Government of Ukraine and the 
Government of Russia could come to a satisfactory resolution 
through some structure other than Minsk, but would achieve the 
objectives of Minsk, which we are committed to.
    So my caution is I wouldn't want to have ourselves 
handcuffed to Minsk if it turns out the parties decide to 
settle this through a different agreement.
    Mr. Engel. Well, let me say that I hear what you are 
saying, but I disagree, because I believe that the only thing 
that Russia understands is tough talk and if they think that we 
are somehow willing to relax the sanctions on them before they 
have complied with the Minsk framework and left Crimea I think 
it just will encourage Putin to continue his bullying and who 
knows where he will strike next.
    Secretary Tillerson. That is not our intent, nor will we do 
that. I back the objectives of Minsk.
    Mr. Engel. And let me finally ask you, what has the 
administration done to respond to the Russian assault on our 
Presidential Election? Have you spoken with the President about 
how to prevent from ever happening again?
    Secretary Tillerson. I have spoken to the Russians directly 
about it. Their response is pretty much as you have seen in 
their response publicly to be. But we have registered our 
complaint about that and that it is going to be a constant 
obstacle to our ability to improve our relationship if they do 
not address it.
    Mr. Engel. Thank you very much. Mr. Chairman, I yield back.
    Chairman Royce. Thank you, Mr. Engel. We go now to 
Congresswoman Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Welcome, 
Mr. Secretary.
    I am strongly against the proposed zeroing out of democracy 
and governance programs, especially in Cuba, Nicaragua, and 
Venezuela, where civil society is facing increasing repression. 
In the last 2 months nearly 3,000 Venezuelans have been jailed. 
Over 1,000 have been injured, and nearly 70 people have been 
killed by Maduro's thugs. So I ask you to please place more 
human rights violators on our sanctions list.
    On a separate topic, in January of this year, your State 
Department determined that the PLO and the Palestinian 
Authority have not complied with their commitments under U.S. 
law, yet all potential sanctions were waived. So I ask how you 
can justify an increase when so many things in the budget are 
cut, but the PA has an increase in your budget request.
    Also, a few days ago, Mr. Secretary, Israel's Prime 
Minister called for UNRWA to be folded into the U.N. 
Commissioner for Refugees after a Hamas tunnel was found 
beneath two UNRWA schools. Is the U.S. going to support our 
ally, Israel, and prohibit funding to UNRWA?
    And finally, on Iran, as a witness told this committee at a 
hearing in February, sir, the International Atomic Energy 
Agency ``has not been able to state that Iran has addressed its 
concerns and questions about past nuclear weapons activities.'' 
And it also ``has not stated that it successfully is verifying 
the JCPOA's prohibitions on specific nuclear weapons 
development activities.'' So considering this lack of 
verification, how does the Justice Department justify its 
certification that Iran is in compliance with the JCPOA as it 
did in April? And I don't want to take more time, but if you 
could answer adding names to the Venezuela sanctions list, 
UNRWA funding, and Iran and noncompliance.
    Secretary Tillerson. We are working with Treasury to 
develop a very robust list of individuals and most recently you 
saw sanctions imposed on six members of the Venezuelan Supreme 
Court in response to their decision handed down which we felt 
was certainly not in keeping with the Constitution. We are 
going to continue to be very engaged in the situation in 
Venezuela, but as you know, the challenge for the U.S. is to do 
this in a way that is productive and constructive as opposed to 
the U.S. then being used by the Maduro regime as a tool to 
justify their actions. But rest assured, we have active efforts 
underway working with others in OAS, in particular.
    With regard to the Iran compliance, we rely upon the 
process called for under the JCPOA and the IAEA. We do question 
them vigorously. We are in discussions with them to ensure that 
are they meeting all of those obligations to certify compliance 
to us. We are reliant upon them to make the certifications to 
us in order to then make decisions around filing a compliance 
report and then filing the sanctions and waivers that follow on 
with that.
    With respect to the Palestinians, we are in active 
discussion with the Palestinian Authority. As you know, we had 
a meeting here in Washington at the President level and I had 
my own bilateral meetings with President Abbas. We were 
recently in Israel and had meetings with the Authority in 
Bethlehem. These discussions are around issues of how they 
manage terrorism and how they manage violence within the West 
Bank and Gaza, but it is also hopefully setting the stage for a 
re-engagement on the peace process with the Israelis. So all of 
those issues of concern have been discussed with them.
    Ms. Ros-Lehtinen. Thank you, sir. And I won't take up any 
more time. Thank you, sir.
    Chairman Royce. Mr. Brad Sherman of California.
    Mr. Sherman. Our hearts go out to the victims. This is an 
attack on our democracy and the best response is for us to be 
here doing our jobs, so I thank you, Mr. Secretary, for being 
here. Most of my questions will be for the record because we 
want to be as brief as possible.
    The discussion about what resources the State Department 
should have and without objection I would like to put into the 
record a letter from 120 Three and Four Star Flag Officers 
urging that you have more resources than you are asking for. 
And of course, Senator Corker made some more comments to you 
yesterday.
    We in Congress decide how much money is going to be spent. 
We have the overall view. We might plug a tax loophole or have 
savings in another part of the budget that would allow us to 
spend more on foreign ops. But we do our best job when we get 
guidance. I would hope that you would submit for the record how 
you would spend a 10 percent, a 20 percent, or a 30 percent 
increment. What your recommendation to us is if we can find the 
money to provide that and I thank you for nodding.
    I am going to move on to the red boxes that the ranking 
member brought up. The Under Secretaries, the Assistant 
Secretaries that haven't been appointed. We talked about this 
and I commend you for your decision to praise the people who 
are filling these positions as Acting Assistant Secretaries, 
Acting Under Secretaries. They are career professionals. They 
are doing a spectacular job except they can't do the job 
because they are temporary. They are not authorized to make 
policy and there are hundreds of decisions that shouldn't reach 
your desk, but need to be made by someone who isn't just there 
holding down the--so I would urge you to submit a list of those 
actings that you would recommend keep their job because they 
are doing a spectacular job and they have already got their 
security clearances and then you hit the ground running and 
whoever holds that position not only has the incredible 
competence that you and I have discussed, but also has the 
authority of saying this is really my desk.
    I would urge you to designate the Islamic Revolutionary 
Guard Corps as a specially designated foreign terrorist 
organization. The Quds force is already so designated. If you 
designate the subsidiary, you should designate the entire 
consolidated group of corporations. If we apply that business 
term to the situation you should certainly designate the IRGC 
given the thousands of people they have killed in Syria.
    We face an ideological threat from radical Islamist 
terrorism. I hope that we would pay to print and provide 
textbooks to parents who otherwise have to pay for them and 
expand our broadcasting, particularly in the regional language 
of Pakistan, especially Sindhi.
    Now a couple of oral questions. I think this is an easy 
one. Is the Trump administration committed to the 
implementation of last year's extension of the U.S.-Israel 
Memorandum of Understanding regarding security assistance?
    Secretary Tillerson. Yes.
    Mr. Sherman. Another one that might be a little tough. They 
are talking about an arms package for Saudi Arabia starting at 
$110 billion, perhaps $350 billion over the next 10 years. Can 
you provide the committee with assurance that the State 
Department will closely scrutinize any proposed sales to ensure 
that they do not adversely impact Israel's qualitative military 
edge and that you would oppose the transfer of F-35 aircraft?
    Secretary Tillerson. We will ensure that all of those sales 
meet all of our obligations both to Israel and to others.
    Mr. Sherman. I yield back.
    Secretary Tillerson. I would like to respond to----
    Mr. Sherman. I yield to the Secretary.
    Secretary Tillerson. I would like to respond to the ranking 
member's chart, all the red boxes since you brought it up. 
First, just so you know, we have named and have names in the 
process at the White House for about 50 percent of the Under 
Secretary and Assistant Secretary positions and we have 
candidate lists that we are narrowing down for the remainder.
    Same on the ambassadorial roles. We have 212 Ambassador or 
representative positions. Over 140 of those are filled. Of the 
remaining 70, about half have already been named and are in 
process. The other half we have evaluations with candidates 
under way.
    One of the real obstacles over in the process is--I 
followed up with people, all these people were named literally 
months ago, asking what is the hold up--and when we call them 
we find out it is getting their paperwork done. The paperwork 
burden to get the clearance and to satisfy the Office of 
Ethics, which is important, is extraordinarily burdensome. I 
know from my own experience, I had to hire eight individuals to 
help me get mine done so that I could get it done as quickly as 
I did. Most people can't afford to do that. So this is an 
extraordinary chore for people to get through the paperwork, 
even former senators who have been nominated for positions are 
struggling to get through the paperwork. Just the point that it 
is not because people haven't been named and they are not in 
the process. They are being processed.
    Mr. Sherman. I yield back.
    Chairman Royce. We go now to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. Mr. 
Secretary, welcome to the committee and thank you for your 
leadership.
    On human trafficking, Mr. Secretary, the TIP Report, as we 
all know on the country ratings will soon be released. They are 
under active review right now. Tragically, the Obama 
administration in the last 2 years ignored TIP recommendations 
and artificially inflated, gave passing grades, to countries 
like China, Cuba, Oman, and Malaysia who have egregious records 
when it comes to human trafficking. They ignored the TIP 
professionals and they politicized the outcome. Reuters 
confirmed this. They did an investigative report that was 
incisive and brilliant. I held several hearings on it and the 
focus of the last one was ``Next Time Get it Right,'' because 
they didn't. We sell out the victims of human trafficking when 
we misappropriate a tierage, Tier 3 being the worst and say you 
are okay when they are not. So please, assure the committee 
that this year's TIP Report will be honest, transparent, and 
will follow wherever the human rights abuse goes.
    What you do with sanctions, the part two of all of that, is 
all up to you. Hopefully, all of you are very informed and you 
will make a great decision on that, but at least get the TIP 
Report right. We have to restore the integrity of that report.
    Secondly, on food aid, on October 15th, I held a hearing on 
why everyone it seemed were exiting the Middle East and going 
to Europe. Some wanted to come here, but most flooded into 
Europe. We were told by the UNHCR's Regional Representative 
that the trigger was the 30 percent in the World Food Programme 
provisions and that the UNHCR appeals have been so under 
realized, average 40 percent, 60 percent unrealized, so people 
felt helpless and abandoned in those refugee camps. They 
finally said we are out of here. We are going somewhere, 
Germany, wherever they wanted to go, but it was triggered by a 
lack of food aid and other kind of humanitarian assistance.
    I would appeal to you. Karen Bass and I just returned from 
South Sudan. It was my second trip within the last 9 months. We 
went to refugee camps. One refugee camp, the largest, one of 
the largest in the world, Bidi Bidi, in Uganda, they are 
cutting food rations by 50 percent because it is not there.
    We did go to another camp, Bentiu, which is an IDP camp in 
Unity State and frankly, they had food and a lot of it was 
courtesy of the United States Government, so thank you for 
that. But we have to make sure that that food does not 
diminish. It needs to actually be increased. We are having a 
hearing tomorrow, it was scheduled for today, on the fact that 
some 14 million Africans are at risk of famine and the driver, 
frankly, is conflict. But they have to get that food aid.
    Finally, I will just say this on the issue of the conflict. 
I believe and I think Karen would agree with this that there is 
a window of opportunity with South Sudan and Salva Kiir and his 
leadership to really put pressure on them to end this conflict 
which is a Nuer versus Dinka conflict. He has a new chief of 
staff for the military who seems to be saying all for the right 
things. His previous one was a disaster and the rapes and the 
interruption of convoys on their way to deliver foodstuffs and 
humanitarian assistance were disrupted by the military. So 
please, there needs to be an all-out effort on South Sudan 
right now to act on this window of opportunity, Mr. Secretary.
    Secretary Tillerson. Well, as to the human trafficking 
report, as I said in my opening statement, we will see the 
world as it is. We will be honest with ourselves and the 
American people. So let me assure you that report will be 
reflective of what the circumstances actually are.
    On the food aid, you are correct. So much of this is 
complicated by conflict. We appreciate that Congress gave us a 
big plus up on food aid this past year. Some of that money, I 
guess I can say regrettably, is going to carry over to 2018 and 
it has to do with our ability to deliver, particularly in some 
of these conflict areas. We have had difficulty working with 
NGOs getting some of the food delivered because of issues in 
the case of the conflict around Syria, issues with NGOs in 
Turkey that you have read about. We are working with the 
Government of Turkey to facilitate them approving and not 
stopping our ability to get aid into these regions.
    You mentioned parts of Africa. Yemen, there is a serious 
famine crisis in Yemen. Again, we are blocked, the aid workers, 
and we are blocked from being able to deliver to the people 
that need it. We are working, trying to work solutions in all 
of these areas with our first and highest priority create 
conditions that we can at least get the humanitarian aid in 
while we are working on the conflict resolution itself.
    Chairman Royce. We go now to Mr. Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here. Let me just first say, Mr. Secretary, that 
what we are looking at--I understand the difficulty with the 
paperwork, etcetera, but just noted that the Bush and the Obama 
administration was way ahead at this point as far as hiring the 
number of individuals that we had at various levels at the 
State Department.
    But let me ask you a couple of questions and maybe you can 
clear them up for me. As I travel around, these are questions 
that I am often asked and I have been unclear with some of the 
answers and so maybe you can answer them in the vein of what we 
talked about here in a yes or no answer.
    Are you in favor of America First nationalism?
    Secretary Tillerson. America First, as we said, does not 
mean America alone. We will continue our strong alliances and 
partnerships and maintain the friendships, the relations that 
we have around the world.
    Mr. Meeks. Because of some of the statements that the 
President has made about America First and he has said that a 
lot of the other countries around the world have to give things 
back or we are not going to do this or that, in his words, by 
just using the words, America First in that regard, do you see 
any negative consequences to America's standing internationally 
as a result of the America First, which would seem to indicate 
to the rest of the world that it is about us and only about us 
if you just take that language.
    Secretary Tillerson. Congressman, that is why the Vice 
President, myself, Secretary of Defense, others have been 
making numerous trips, the President himself with his trip 
abroad. We have to ensure our partners and allies understand 
what that moniker conveys and I think what we have had good 
dialogue with them about is it does not mean America is 
stepping back or that we only worry about our own self 
interests. Rather, as I indicated, we live in some really 
challenging times and a lot of things are changing. We have to 
ask our allies and friends to do more and take more 
responsibility in these great alliances that we have.
    Mr. Meeks. Okay, so let me----
    Secretary Tillerson. And what I am hearing back is they are 
glad we are engaged. I have seen no indication that our 
relationships have been undermined with this very open, frank, 
and honest conversation we are finally having with people.
    Mr. Meeks. Short period of time I have, so let me just ask 
this so that we can be clear. Do we support, because I know 
that the President has said that he doesn't generally agree 
with multi-lateral agreements or multi-lateral organizations. 
He would rather do things on a bilateral basis. So we do 
support the EU?
    Secretary Tillerson. Yes. We have been quite clear that we 
do.
    Mr. Meeks. NATO?
    Secretary Tillerson. Without a doubt.
    Mr. Meeks. OAS?
    Secretary Tillerson. Certainly.
    Mr. Meeks. WTO?
    Secretary Tillerson. Yes. But WTO needs some reform.
    Mr. Meeks. The U.N.?
    Secretary Tillerson. Yes, the U.N. needs a lot of reform.
    Mr. Meeks. The Asia-Pacific Economic Cooperation?
    Secretary Tillerson. Yes.
    Mr. Meeks. So we will work and we are going to--silently 
with all of those----
    Secretary Tillerson. We are engaged with every one of those 
organizations you named. And those that are quite effective, we 
want to strengthen them. Some of them need significant reform 
and that is not just the U.S. point of view.
    Mr. Meeks. I am just trying to make it clear because for 
some, quite frankly, Secretary, what has happened is the truth 
of the matter is as you have traveled and General Mattis, 
etcetera, and the Vice President, they have heard one thing and 
it seems to be that people are relieved when they have heard 
you speak. Then the President tweets or says something else. It 
seems to contradict what you say and so then people come to me 
and they don't know what to believe, whether or not it is the 
words of the Secretary of State or the President of the United 
States. That is not your fault. There is nothing you can do. I 
don't want to--in the little bit of time that I have.
    I really want to jump then real quickly into this issue 
that we have, just talking about the budget because 21 percent 
of the diversity in the State Department has come from the 
utilization of the Fellows, either the Pickering or the Rangel 
Fellows. And I understand that there is a freeze that is going 
on and we have already spent $85,000 per person on these 
students. So I am wondering if not these bright, young 
individuals who can help diversify the State Department that 
they can be waived from this freeze. They have finished the 
program. They have been paid. We have invested the money so 
that they can then take their spots in the foreign service. Is 
there any opportunity for them to be----
    Secretary Tillerson. There is no freeze. The structure of 
the program, Rangel-Pickering, which is very important to us 
and we have every intention of continuing it, the obligation in 
the contract that the young people and others engage with us 
when we fund their tuition and for their graduate studies is 
that we confirm that we will offer them a position in consular 
affairs. That is confirmed. And it is a 5-year commitment on 
their part to serve.
    We then say we will put you on the list for consideration 
for the next A-100 foreign service class. We are holding the 
next A-100 foreign service class because quite frankly right 
now on foreign service officer staffing we are actually up 
about 50 people from the beginning of the year. With our 
expected manning which we are looking at probably an 8 percent 
reduction by the end of fiscal 2018, in order for us to have 
time to manage how we want that to occur so that we do not 
diminish the strength of the foreign service corps, we are 
holding the next A-100 class. So nothing has been frozen and we 
want people to continue to apply and they are all offered a 
position in consular affairs and that is no change from the 
past.
    There has never been a guarantee that anyone would have a 
clear offer or pathway to foreign service. They would be 
considered for foreign service, based upon the work they have 
completed, but they always have an offer to go to work in 
consular affairs.
    Chairman Royce. Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you, Mr. Secretary, and let us just 
note that right from the very beginning you outlined for us 
that we have been spending more money on our foreign projects 
and foreign goals than we have at historic levels, which have 
actually been lower. Let me just note for the record that this 
increase in spending levels especially in the last 8 years, has 
not resulted in a more peaceful world or a more secure 
situation for the people of the United States of America.
    Let me note also, Mr. Secretary, that I am proud that we 
have a Government now and we have a President who makes no 
apologies for putting America first in his priorities. What is 
important for the well-being, security, and prosperity of the 
United States is our job and for us to try to blur that is not 
doing anyone a service.
    Achieving our goals, however, let us note, and putting 
America first, achieving our goals does not necessarily derive 
from higher budgets, but like you have committed to us today, 
working with other countries and making sure that we reach out 
to make friends and to make sure that we turn enemies into 
friends and get the job done for helping the less fortunate 
people of the world is something that we will work together on 
and not just bear as a burden of the United States taxpayer. So 
I appreciate, number one, what this administration is doing and 
what you are doing, Mr. Secretary, to achieve those goals.
    I have some specific questions for you on specific areas. 
Number one, are we still giving money to Pakistan? Dr. Afridi, 
who fingered Osama bin Laden, the murderer of 3,000 Americans 
in 9/11, is being held in a dungeon there and the Pakistanis 
continue, we know, the ISI continues with a notorious support 
of terrorist elements in Afghanistan. Why are we still giving 
Pakistan any aid at all?
    Secretary Tillerson. We are beginning an inter-agency 
policy review toward Pakistan. This is going to be one of the 
considerations. The President has asked the questions 
specifically about our level of support and funding to 
Pakistan. No decision is to be taken until we complete that 
policy review, as you well can understand and appreciate.
    Pakistan and our relationship with them touches on some 
much broader issues relative to stability in Afghanistan and 
how we achieve that, but also stability in the Indo-Pacific 
region. It is a very complex relationship we have with the 
Government of Pakistan, but your concerns are all well founded.
    Mr. Rohrabacher. I will trust you and trust this 
administration that we take a realistic view and sometimes that 
means biting the bullet and having when you are dealing with 
someone who is--they have been two-faced with us for so long 
now. Pakistan is acknowledged by most of the people I have 
dealt with as the source of terrorism in that part of the world 
and if we don't succeed in Afghanistan, it will be because of 
the ISI in Pakistan. With that said, Afghanistan looks like it 
is not going in the right direction. And there are some 
creative ways to handle this. We continue to have our troops 
involved there, but some people are calling for more troops. I 
hope that we look for other methods rather than sending 
American troops into Afghanistan.
    Secretary Tillerson. Congressman, we have an Afghanistan 
policy, as you know, under review as well and I mention that in 
the context of Pakistan because you cannot work one without the 
other.
    In the interim though, we have had inter-agency discussions 
with the President about how to preserve the opportunity for 
our long-term solution in Afghanistan where we never allow 
Afghanistan to become the platform for terrorism to be launched 
against the United States or certainly others. That work we 
expect to complete over the coming weeks, review it with the 
President, make a final policy decision. But it has not been 
going well in Afghanistan. I would refer and defer to Secretary 
Mattis' assessment and he testified to that effect this week.
    And I think there are steps we need to take to at least 
prevent further deterioration while we get our new policies in 
place. What we are following now are the policies of the prior 
administration and we need to take some steps to stem the 
effects of those while we get our policies in place.
    Mr. Rohrabacher. Thank you very much, Mr. Secretary.
    Chairman Royce. We go to Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman. Mr. Secretary, thank 
you very much for being here.
    Mr. Secretary, I was not born in this country. I was born 
in Cuba. Growing up as a little boy, what I remember is the 
process of indoctrination where the premise of the 
indoctrination was the destruction of America. Everything that 
was evil was America. We have a situation now where we have a 
White House that seems to ignore the fact that Russia was 
meddling in our democracy. The most important thing in this 
world, I think, is the democracy that we have here. And the 
fact that some of these intelligence agencies have confirmed 
Putin's involvement in this.
    I ask you why are we treating Russia with kid gloves? Why 
are you coming before us and telling us to give you flexibility 
when the premise of Russia is to destroy this country? I think 
the fact that we have a bipartisan effort now with this 
legislation to put some sanctions on Russia and to send a 
strong message that this is something that we will not allow--I 
just cannot understand why this White House seems to treat this 
man with such kid gloves? Why don't we just talk and tell the 
reality, tell the people of America from the White House?
    I know you have spoken about it. Other members have spoken 
about it, but can you tell me, please, so I can rest a little 
better?
    Secretary Tillerson. As I have characterized the 
relationship with Russia and I did this after walking out of 
President Putin's office and went immediately to a press avail 
in Moscow, the relationship between the United States and 
Russia is at an all-time low post-Cold War.
    Mr. Sires. But it is not us. It is their doing.
    Secretary Tillerson. And it is getting worse.
    Mr. Sires. Excuse me, I don't mean to interrupt. I don't 
have too much time. But it is their efforts to undermine us.
    Secretary Tillerson. And it is getting worse and the two 
greatest nuclear powers on the planet cannot have this kind of 
a relationship. We have to move it to a different place and 
that is what I have been asked to do, is to determine whether 
we can move the relationship to a different place that doesn't 
present the kind of threats to us and to the world that I am 
concerned the current relationship does and further 
deterioration would.
    And I fully appreciate and share the sentiment of all you 
just said, but the issue is do we want to make the relationship 
worse and where will that leave us? What is next? Or do we want 
to see if we can stabilize it and begin to deal with--there is 
a large number of issues----
    Mr. Sires. But Mr. Secretary----
    Secretary Tillerson [continuing]. On the table between us 
including meddling in the elections. And do we want to try to 
deal with those toward some resolution? It may very well be 
that when we have progressed this discussion with them to some 
point where I will be the one to tell you we are getting 
nowhere. We are getting nowhere.
    Mr. Sires. Mr. Secretary, I think you are going to the 
other extreme now.
    Secretary Tillerson. I will be the first to come back to 
you and tell you----
    Mr. Sires. We are going to the extreme where we seem to be 
just giving into a lot. There are messages you can send without 
going to a nuclear war. You know, there are things that we can 
do and send strong messages to this country.
    Secretary Tillerson. Sanctions are very useful tools. 
Unilateral sanctions are not quite as useful as multi-lateral 
sanctions. And we are, as we think about additional sanctions, 
one of my challenges and I take this as my responsibility, is 
how do I bring other allies along with us to say to them you 
must respond in this way as well. In order for these sanctions 
to be the effective pressure that I know we all want and that 
you desperately want, I agree with that. We can take unilateral 
action, but if we take it alone and we get little support from 
others, they will be somewhat hollow and Putin will know they 
are hollow.
    So this is a bit of a tactical discussion you and I are 
having at this point, not a fundamental discussion around 
intent, objectives. Our interests are completely aligned, let 
me assure you. This is really a tactical difference of opinion 
I think.
    Mr. Sires. Well, I do hope that you send this message to 
the President. And tell him that a lot of people are looking at 
how he behaves toward Russia. And quite frankly, I am very 
concerned. Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you. We go to Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. Thank you, Secretary 
Tillerson for being with us here today. I have been a member of 
this committee for two decades now. I have chaired the Middle 
East Subcommittee and the Asia and Pacific Subcommittee as 
well. The issue I would like to discuss with you this morning 
is Taiwan.
    As a founding member of the Congressional Taiwan Caucus and 
having been to that nation--and I use that term nation 
intentionally--quite a few times, I take the commitments of our 
country that we have made with Taiwan very seriously. I believe 
that you do, too.
    Taiwan is a close ally of ours. It is one that truly 
exercises freedom and democracy and can be a role model to 
other nations facing an aggressive bullying neighbor. Taiwan 
faces an unrelenting threat from China which has nearly 600 
ballistic missiles aimed directly at Taiwan. Although Taiwan 
enjoys de facto independence, China's ultimate goal, as we 
know, is the annexation of the island. Therefore, the Taiwan 
Strait remains a potential hot spot.
    The PRC's aggression toward Taiwan has only grown over the 
years. The PRC more and more is referring to Taiwan as a core 
interest to them. They continue to block Taiwan's participation 
in international gatherings and the world, including the United 
States, embarrassingly, usually yields to China's bullying.
    Further, China continues its long campaign to pressure 
nations around the world to stop their recognition of Taiwan. 
And Panama just this week announced its intention to yield to 
that pressure.
    Fortunately, the 38-year-old Taiwan Relations Act is still 
alive and in place and this historic legislation has thus far 
maintained peace and stability, but we must be clear to the PRC 
that if push comes to shove, the United States will stand with 
Taiwan.
    Now Mr. Secretary, a couple of questions. China would never 
allow us to determine who they can meet with. Yet, because of 
fear of offending China principally, we won't allow high 
Taiwanese officials to set foot in this city, our Nation's 
capital, Washington, DC, right here.
    Some years back, a couple dozen Members of Congress, 
including myself, had to get on a plane and fly to New York 
City one evening after votes to meet with the President of 
Taiwan, President Chen. I know some other members are nodding 
because they were on that same plane with me. Because he wasn't 
allowed to come here at our Nation's capital.
    Now an important bill to remedy this, which I have 
introduced in previous Congresses as well, H.R. 535, the Taiwan 
Travel Act, would allow the President and Vice President, 
Foreign Minister, and Defense Minister to come here. It is 
being marked up tomorrow in the Asian Pacific Subcommittee and 
I would welcome the administration's support for that measure 
and I appreciate your comment, please.
    Secretary Tillerson. Well, thank you, Congressman. You have 
summarized it quite well in terms of the situation as we see it 
today between China and Taiwan. As you know, the China-U.S. 
relationship has been defined for the past 50 years by our One 
China policy and our agreement around One China policy. They 
have their interpretation of what that means and we have ours 
and we have agreed that we will accommodate each other's 
interpretation. But that has led to 50 years of stability in 
the region. It has prevented conflict and has allowed for this 
enormous economic growth that has gone on, much of which we 
have benefitted from.
    As we begin our dialogue with Chinese leadership with this 
new administration, as you know, there was some questioning of 
our commitment to One China early on. The President has 
reaffirmed that we are committed to the One China policy. We 
are also completely committed to the Taiwan Relations Act, of 
fulfilling all of our commitments to them under that act. But 
we are also in a discussion with China now about what is our 
relationship going to be for the next 50 years? How do we enter 
another era of stability and absence of conflict? And Taiwan, 
clearly to the Chinese, is a part of that discussion.
    So it is important as we engage with them that we are able 
to fulfill our commitments to Taiwan, which we have every 
intention of doing. And that the question is, is the One China 
policy sustainable for the next 50 years? And those are the 
kind of discussions we are having. They are extremely complex 
in many regards. But this is what we seek as another 50 years 
of stability and no conflict with China in the Pacific region. 
Taiwan is a big element of that. North Korea is a big element 
of that. Their island building and militarization of islands is 
a significant element of that. All of these are in our 
discussion with them about how do we define this relationship 
for the next half century to ensure we have a continued era of 
no conflict and stability.
    Mr. Chabot. Thank you. My time has expired.
    Chairman Royce. We go now to Gerry Connolly of Virginia.
    Mr. Connolly. Thank you. Thank you, Mr. Secretary, for 
being here today.
    Mr. Secretary, I guess I am wondering what the Trump 
Doctrine means. Because to some of us it looks like making 
America great again in the realm of foreign policy means 
unilateral withdrawal and disruption. We renounced our own 
Trans-Pacific Partnership Trade Agreement. We have threatened 
to renegotiate NAFTA with our two largest trading partners and 
have had unfriendly assertions with both.
    We have renounced the Paris Climate Agreement, signed by 
195 countries. We have now joined the happy company of two, 
Nicaragua and Syria. What a proud moment for our country.
    We have threatened the NATO alliance with being 
``obsolete'' and refused in Europe at the moment it was 
expected to reaffirm Article 5 and our commitment to it.
    We have embraced Russia in a way that is disturbing, I 
think, for most Americans. The President personally championed 
Brexit to the enormous consternation of our closest ally, the 
United Kingdom.
    He has embraced strongmen--Duterte of the Philippines; 
Erdogan of Turkey; Putin of Russia, el-Sisi of Egypt--while 
lecturing our closest allies about their commitments.
    And in your budget, he has proposed a 32 percent cut in the 
Function 150 and Function 300 international affairs functions 
of the budget that would cripple our ability, frankly, to 
engage in serious diplomacy. And of course, there is the U.N., 
with constant threats of pulling out of specialized agencies 
and even peace-keeping operations.
    Mr. Secretary, how does a reasonable observer of that sorry 
and lamentable litany not conclude otherwise than this 
constitutes a serious unilateral withdrawal from long term 
post-World War II commitments, values, and policies of the 
United States Government?
    Secretary Tillerson. Congressman, my assessment of all as I 
listened to that entire list of areas, we can go down them. The 
withdrawal from TPP was by and large supported by most people 
in this body and up here on the Hill. There was little 
support----
    Mr. Connolly. Mr. Secretary, I know we could pick one or 
two from the litany.
    Secretary Tillerson. Well, I am picking your list.
    Mr. Connolly. Are you going to go down the whole list? 
Because we are going to run out of time.
    Secretary Tillerson. Well, if you are not interested----
    Mr. Connolly. I am interested, but I am just worried about 
time and my question really wasn't about a particular item on 
the list. It was, does this add up to a radical alteration in 
our foreign policy? You are the Secretary of State.
    Secretary Tillerson. It does not add up to a radical 
alteration of our foreign policy. I think in my statement I 
made a couple of comments that in my view and in my assessment, 
many of our institutions have not--have never responded to the 
post-Cold War era. With the fall of the Soviet Union, a whole 
array of dynamics were unleashed globally. After 9/11, a whole 
new array of threats were unleashed. And we have continued to 
try to address those with the old constructs. Not that the 
constructs are not valid and not that the constructs don't give 
us the frame and the relationships, but we have to begin to 
examine the effectiveness of those.
    And I think what the President is doing is he is examining 
all of these elements and we are questioning whether they are 
as effective as they should be and whether our partners and 
allies have come as far as we have come in commitments. So I 
would call this an elevated level of engagement, not in any way 
withdrawal.
    I think what people are questioning is because we are 
making certain demands of allies and partners and we are having 
this very frank, open, honest conversation with them that needs 
to occur. It needs to occur so that----
    Mr. Connolly. Mr. Secretary----
    Secretary Tillerson [continuing]. If people take a 
difficult as a decision around this as we take, that will 
strengthen our alliances. There will be greater commitment 
toward this, not less.
    Mr. Connolly. Mr. Secretary, to call this an elevated 
involvement in the world would embarrass even George Orwell. I 
yield back.
    Chairman Royce. We go to Mr. Joe Wilson of South Carolina.
    Mr. Wilson of South Carolina. Thank you, Mr. Chairman. Our 
prayers are with our colleagues who are not here today due to 
the baseball practice shooting: Congressman Jeff Duncan of 
South Carolina, Congressman Mo Brooks of Alabama, and 
Congressman Ron DeSantis of Florida.
    Mr. Secretary, I especially appreciate your Exxon service. 
My heritage is Exxon. My great grandfather started with 
Standard Oil in Richmond in 1890. My grandfather was a division 
manager of Standard Oil in New Jersey and South Carolina. My 
dad was a sales representative for SO Humble. And my brother 
has been an oil shopper for Exxon. So I know of the integrity 
of the company that you have led.
    Also, I was really pleased to see of your Scout background. 
All credit to my wife, we have four Eagle Scouts in our family. 
So thank you for what you have done.
    With so many global challenges, the rogue nation, North 
Korea, continues to push against international norms, and 
threatens our Nation's security and the security of our allies. 
I am concerned that large cuts in our foreign affairs budget 
will leave us at a disadvantage and the distinct national 
security role played by our diplomats so capably.
    I appreciate your willingness to make significant reforms 
to the Foreign Affairs budget in support your continuing the 
State Department's critical missions around the globe.
    So Secretary Tillerson, on the threat of the unstable and 
dangerous North Korean regime, each week there are reports of 
nuclear developments, missile tests, ridiculous videos showing 
Americans being killed, and Americans being unlawfully 
detained. There is bipartisan support and concern.
    Recently, Congressman Adam Schiff and I introduced H.R. 
2732, the North Korea Travel Control Act, which would prohibit 
travel to North Korea. Given the recent release of Otto 
Wormbier and Dennis Rodman's travel to North Korea, do you 
support the prohibition of U.S. tourist travel to North Korea?
    Secretary Tillerson. We have been evaluating whether we 
should put some type of travel visa restriction to North Korea. 
We have not come to a final conclusion, but we are considering 
it.
    Mr. Wilson of South Carolina. And my concern, indeed, that 
tourists go there is simply supporting a dictatorial 
totalitarian regime. And I say this with my colleague, 
Congressman Eliot Engel. He and I are the only two Members of 
Congress who have actually been to Pyongyang. But it was on a 
congressional delegation, not as a tourist.
    Thank you very much for your service.
    Chairman Royce. We go now to Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman. And even as we pray 
for the Majority Whip and the others who were injured this 
morning, I would just like to take a moment to acknowledge and 
express our gratitude to the Capitol Police who permit us to do 
our job every day, keeping us safe as well as all who are here 
in this room today. So we are grateful for what you do.
    Mr. Secretary, thank you for being here. I wanted to first 
add my voice to those who have spoken out against the budget 
and in support of a robust international affairs budget. I 
would just point out that a 32 percent cut to the State 
Department cannot be solely about cost savings to the U.S. 
Government when the defense budget is being increased by 54 
percent. American leadership, as you know, Mr. Secretary, has 
always been and must continue to be about more than just 
military might.
    Next, I wanted to ask you about a hearing yesterday in the 
Senate Foreign Relations Committee. You were asked about 
payments made to Palestinian prisoners and their families, 
hundreds of millions of dollars per year payments that are made 
to those who stab or ram or shoot Israelis, payments to suicide 
bombers, payments that only incite violence and frankly prevent 
movement toward a two-state solution.
    The issue came up, as you pointed out, in bilateral 
meetings. And yesterday, in response to the question you said 
they have changed that policy. Their intent is to cease 
payments to families who have committed violence and murder 
against others.
    Can you provide clarity on the supposed change of policy, 
since Palestinian officials quickly responded by saying that 
there are no plans to stop these payments to families of 
Palestinians killed or wounded in carrying out these attacks?
    Secretary Tillerson. Those were assurances that were given 
to me in the most recent trip to Bethlehem. We have had 
conversations with them and told them they cannot continue 
these types of payments and expect the U.S. and the American 
people to see any explanation for why they do that. They have 
indicated they would. They indicated to me they were in the 
process of changing that. They did say we have to support 
widows and orphans. I said widows and orphans is one thing. 
Attaching payments as recognition of violence or murder is just 
something the American people could never accept or understand. 
So we will continue this dialogue with them. We have been quite 
clear as to our view.
    Mr. Deutch. I appreciate your making that clear. 
Unfortunately, it appears that that position has not yet 
changed.
    Finally, I want to raise an issue that I have raised every 
single time the Secretary of State has sat before this 
committee in the 7 years that I have served here. And that is 
the case of my constituent, Robert Levinson. Bob went missing 
in 2007. He is, Mr. Secretary, the longest held American 
hostage.
    As you know, Bob was not part of the 2016 deal that saw 
five America citizens released from Iran. But as part of that 
deal, commitments were made by Iran to assist in Bob's case. I 
have no doubt that there are those in Iran that know where Bob 
is or how to locate him. I hope that the administration is 
making every effort to prioritize engaging on Bob's case. 
Unfortunately, the Levinson family has not received much high-
level communication since January. I would like to acknowledge 
two of Bob's seven children who are here with us today, his 
eldest son, Dan, and his youngest son, Doug.
    So first, Mr. Secretary, I just would like to ask one, will 
you commit to meeting with the Levinson family?
    Secretary Tillerson. We are happy to provide an update on 
anything we know and just to assure you, as you know, 
regrettably, we have a number of American citizens who are 
detained illegally.
    Mr. Deutch. I understand. I understand that. I would ask on 
behalf of----
    Secretary Tillerson. I just wanted to let you know, we have 
our attention on--we treat them as individual cases.
    Mr. Deutch. Will you meet with the family, Mr. Secretary?
    Secretary Tillerson. Yes.
    Mr. Deutch. Will you either designate a senior level 
position in the Department or fill the position of Special 
Envoy for Hostage Negotiations to liaise on a regular basis 
with the Levinson family and others?
    Secretary Tillerson. We are evaluating people to fill that 
position. I would tell you though and I think it is important, 
we do not stop our efforts just because we do not have someone 
in that role and I hope the evidence of our success already 
during this short term of our administration of securing the 
release of people who have been detained, I hope people take 
encouragement from that and I promise you that we have efforts 
underway for every detained person.
    Mr. Deutch. I understand that. Just sadly, it is 10 years 
now. So I am just focused on Bob. I would ask that you raise 
Bob's case at every opportunity that you have.
    Can I ask you, Mr. Secretary, whether you have plans to 
meet with the Iranians?
    Secretary Tillerson. I have no current schedule to meet 
with the Iranians.
    Mr. Deutch. If you don't do it, which I think is a mistake, 
it is imperative that you press our allies to raise Bob's case 
in their communications with the Iranians or any international 
fora. Ten years is simply too long for a family to go without 
their husband, father, and grandfather. Bob, Mr. Secretary, is 
going to become a grandfather for the seventh time in a matter 
of weeks. He should be home celebrating this joyous moment with 
his family. I appreciate your efforts and urge you to do 
everything you can to bring him home.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you. We go to Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary for being here. It is good to see a fellow Texan back 
in the Secretary of State position.
    I just got back from Mexico City. I chair the U.S.-Mexico 
Inter-Parliamentary Group. I just want to let you know that it 
was a very productive, civil, and respectful meeting on 
security, energy issues, and NAFTA, in terms of how we could 
put energy under the NAFTA umbrella. I know you know more about 
that topic than I do. I think that would be certainly a win-win 
for both of our countries.
    I want to ask you about transnational criminal 
organizations. I had Secretary Kelly testify before my 
committee, stating it is one of the greatest threats facing the 
United States. He said that the cartels share ties with terror 
networks that we are currently fighting overseas, that they are 
threats to the fabric of American society and have the ability 
to sneak drugs and people, including potential terrorists, and 
dirty bombs into the United States. And finally, he stated the 
nexus between criminal networks and terrorist networks is real 
and I would predict will get more sophisticated. Do you agree 
with Secretary Kelly's comments?
    Secretary Tillerson. Yes, I do. That is why we have 
undertaken this joint effort with our counterparts in Mexico 
around trans-criminal organizations, designed around getting at 
the supply chain of how illicit narcotics, but also human 
trafficking and other illicit activities, are carried out 
across our borders. We clearly see the connections of these 
activities with terrorist organizations all the way back to and 
including ISIS. Working with our Treasury counterparts, this is 
part of our global effort to deny terrorist financing as well.
    But this effort really gets at the challenge to our own 
national security, but also the health and well-being of our 
citizens in terms of the number of drug-related opioid deaths. 
So it is a very comprehensive effort that we have had. We are 
advancing with cooperation from our Mexican counterparts. I 
think you are going to see a very different approach to how we 
attack the problem of the cartels.
    Mr. McCaul. That is great to hear. I think we have long 
neglected this. We had a classified briefing with Admiral Tidd 
yesterday, the SOUTHCOM commander, and without getting into the 
details of that, I know that you are aware of that threat and 
it does worry me as the chairman of the Homeland Security 
Committee what is coming from terror ties into the Western 
Hemisphere and potentially across that U.S.-Mexico border which 
I think is why getting security both at the border with Mexico, 
but also Mexico's southern border is so important. Let me just 
thank you for your attention to that and I look forward to 
working with you on that.
    With that, Mr. Chairman, I will yield back.
    Chairman Royce. Karen Bass of California.
    Ms. Bass. Thank you, Mr. Chair. Mr. Secretary, I 
appreciated the discussion that we had the other day. I wanted 
to talk to you in regard to Africa and what our policy is on 
Africa. I appreciated that you were clear that you understand 
the significance of the continent and the role that we play 
there, but it is still not really clear what our overall policy 
is.
    I am in my fourth term here and for the first time in the 
last couple of months, I have had a number of visits from our 
allies in the AU who have come and expressed a lot of concern 
about what the direction is that our country is taking in 
regard to Africa. They have read the budget. They understand 
the numbers and they understand that a budget really reflects 
your values, your policy, and your direction. And so they have 
come to me asking where is the United States going in regard to 
Africa.
    And when I think of the continent, there are three 
different things that come to mind. And I raise these in 
reference to the cuts in the budget. So from the national 
security perspective, we know that on the continent of Africa, 
there are many fragile democracies that can easily collapse and 
that quickly open the door to terrorism. So I am concerned 
about the cuts to the democracy programs, as well as to the 
cuts to U.N. peacekeeping. And I know that we pay a 
considerable share, but we also don't send our troops and other 
countries do.
    In terms of humanitarian assistance, especially including 
health and cutting food aid, and when we had the crisis with 
Ebola, we certainly know how quickly that could have spread to 
the United States. So our interest is very much at stake.
    And when I think of the economic perspective on Africa, and 
we have discussed the tremendous opportunities for U.S. 
businesses, U.S. jobs, but then I look at the budget cuts 
regarding OPIC and MCC, the African Development Foundation, and 
all of those are key institutions to really lay the basis for 
our businesses to do business on the continent.
    So one of my questions to you is you described a process 
that you are going through with the State Department, a 
listening tour, to look at how to run things more efficiently. 
And usually what happens in processes like this is that you 
have the process first and then you come up with the number 
that you need to actually deliver what the State Department and 
USAID should do.
    So my question is were you involved in determining the 30 
percent cut or was it imposed on you? And is your review 
process designed to fit into the cut?
    Secretary Tillerson. We had an interactive process with the 
OMB director. We gave him a pass-back budget. We were then 
given the budget back that I am here today to present. And so 
my view is if these are the resources that are going to be 
available to us, how do we want to prioritize the areas that we 
can have greatest impact. And I indicated this in my opening 
statement.
    I think in terms of Africa, and I appreciate the discussion 
you and I had the other morning. I thought it was quite useful. 
We share the same list of both concerns and opportunities. I 
would point to the fact that we have a lot of other areas of 
our budget that we can bring resources to bear on these 
particular concerns and issues. We have money in the ISIS 
budget that allows us to address some of the threats of an 
emergence of ISIS on the continent of Africa either in North 
Africa and certainly we are keeping our eye on Libya or through 
the Sahel. And we are working with other multi-national 
partners to defend against and not allow a re-emergence on the 
continent itself.
    Ms. Bass. Thank you. And Mr. Secretary, I am sorry to 
interrupt, but I am about to run out of time. I wanted to ask 
you about one other area. I had heard that before you were 
confirmed that a message was sent to the State Department to go 
through and identify any program that was focused on women. And 
I want to know, number one, was that true? And there is a 
specific program, the African Women's Entrepreneurial Program 
and I don't know, I can't tell from the budget detail whether 
that is scheduled to be cut. And then just returning from South 
Sudan and knowing that rape is used as a weapon of war, very 
concerned about family planning services. And I mean birth 
control. I am not referring to abortion at all, but whether or 
not we would seek to eliminate birth control, especially in 
countries where we know that rape is used as a regular practice 
of war.
    Secretary Tillerson. I am not aware of any directive that 
was sent before my arriving there. We certainly have not 
carried out any directive of that nature while I have been 
there.
    Ms. Bass. Thank you very much.
    Chairman Royce. We go to Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Secretary, for being here. Thank 
you for your long-time service. As a fellow Houstonian, I want 
to congratulate you on your position. I appreciate you being 
here as well. I live in Humble, Texas, so you can assume where 
we got our name from.
    First, I want to thank you for your personal involvement in 
the release of Sandy Phan-Gillis, a Texan who had been 
imprisoned unlawfully by China for over 2 years. She was 
unlawfully in prison there. She was on a mission from Houston 
to work on economic things in China and arrested when she got 
on the plane. But thank you for your personal involvement and 
the President's involvement. Now she is released and she is 
back home in Houston. I want to thank you for that on behalf of 
their family.
    I want to go over several things and I will eventually have 
a question as well. The State Department can lead the effort to 
designate the IRGC as a sponsor of terror. I personally think 
that the State Department should designate them as a sponsor of 
terror under Executive Order 13224 and I would hope that would 
be on your radar to do. They are doing bad things throughout 
the world on behalf of terrorism and destroying the human 
rights of many people.
    I would like to know what the policy is of the U.S. toward 
Iran. Do we support the current regime? Do we support a 
philosophy of peaceful regime change? There are Iranians in 
exile all over the world. Some are here and then there are 
Iranians in Iran who don't support the totalitarian state. So 
is it the U.S. position to leave things as they are or to 
support a peaceful, long-term regime change?
    I want to mention Russia, second issue. I was in Georgia in 
2008 about a week after the Russians invaded and I know 
Congressman Smith was there when the Russians actually did 
invade. Russia took one third of the country. Basically, the 
world said that is not nice and nothing happened.
    And then in 2014, they took Crimea. They are in Eastern 
Ukraine now. And does our policy, U.S. policy state that that 
was unlawful and it is still unlawful and that those 
territories in Georgia must be returned to Georgia and to 
Crimea and as well as Eastern Ukraine be returned to Ukraine or 
are we just going to accept a Russian invasion of those 
territories?
    And the last thing I want to mention is Pakistan. I think 
Pakistan is playing us. We give them money. That money ends up 
in the hands of bad guys in Afghanistan who hurt Americans. I 
personally think that Pakistan should not get any American 
money. They get $500 million a year, not counting the military. 
They should be designated as a state sponsor of terror and they 
also should be removed from the major non-NATO status that they 
have. But I know this has been a discussion for years, to try 
to get Pakistan on board to do the right thing. They don't. 
What are we going to do? I heard your comments earlier. Are any 
of those things that I mentioned options?
    So Iran, Russia, Pakistan, and I will let you comment on 
that.
    Secretary Tillerson. Well, our Iranian policy is under 
development. It has not yet been presented to the President. 
But I would tell you that we certainly recognize Iran's 
continued destabilizing presence in the region, their payment 
of foreign fighters, their export of militia forces in Syria 
and Iraq, and in Yemen, their support for Hezbollah. And we are 
taking action to respond to Iran's hegemony. Additional 
sanctions actions have been put in place against individuals 
and others.
    We continually review the merits, both from a diplomatic 
standpoint but also the international consequences of 
designating the Iranian Islamic Revolutionary Guard in its 
entirety as a terrorist organization. As you know, we have 
designated the Quds.
    Our policy toward Iran is to push back on this hegemony, 
contain their ability to develop obviously nuclear weapons, and 
to work toward support of those elements inside of Iran that 
would lead to a peaceful transition of that Government. Those 
elements are there, certainly as we know.
    Mr. Poe. Excuse me, Mr. Secretary, I am out of time and I 
would just expect--I would like a written response to those 
questions. And I have a constituent named Claudia who sent me 
some excellent questions to ask you and I hadn't gotten there. 
I will submit these to the record as well.
    Chairman Royce. Without objection.
    Mr. Poe. And thank you very much for your service and being 
here today. I yield back.
    Chairman Royce. William Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. I think I speak for 
all my colleagues this morning, it has been difficult through 
this hearing not to keep in our minds our colleague, Steve 
Scalise, and our other colleagues, the staff, and Capitol 
Police who were injured, and their families.
    And I want to thank you, Mr. Secretary, for your 
willingness to serve your country.
    This committee has had a great experience, as long as I 
have been here, working in a bipartisan fashion with the 
administration trying to find the areas of commonality. And I 
mean this sincerely. I am not going down this path. It is just 
a clarification, if I could. For our ability to interact with 
the administration, nothing more than that. But I want to get a 
better idea to clarify the position of Jared Kushner in the 
administration. He has a major foreign policy position. But is 
he coordinating with you? What is your experience? Has he ever 
engaged in foreign policy discussions without prior 
coordination with the State Department? How would you define 
his role?
    Secretary Tillerson. Mr. Kushner is a senior advisor to the 
President, so he does attend our discussions, not all, but 
discussions we have in the West Wing from time to time. And I 
would say there is a clear recognition by him as to where 
foreign policy is conducted. It is in the State Department. It 
is by the Secretary of State. So I would say his role is one of 
any other senior advisor in the West Wing. He has freedom and I 
have invited him, as I have others serving the National 
Security Advisor McMaster and others, to call if there are 
issues that arise in the West Wing, let me know so we have 
visibility so we can begin talking about how we want to address 
those.
    Mr. Keating. Do you have any instances where he hasn't 
coordinated with State or yourself before engaging in 
discussions with foreign nationals or officials?
    Secretary Tillerson. You would have to ask him as to 
whether he has.
    Mr. Keating. Thank you. Thank you, Mr. Secretary. You spoke 
earlier about the working relationship with China in terms of 
North Korea. And there have been positive steps. I want to 
congratulate you on your work in that regard. But one of my 
concerns is the fact that as China might move away from trade 
opportunities to try and pressure North Korea, Russia seems to 
be creeping in replacing that vacuum with their own trade 
opportunities and other interactions with North Korea. Have you 
addressed this to Russia? This is a problem, I think we will 
have in dealing with the North Korea situation because if 
Russia just comes in and tries to fill that vacuum, then our 
work with China won't be as effective as it could be.
    Secretary Tillerson. We have seen that occur already as 
China has withdrawn certain support. Russia has backfilled 
that. Yes, North Korea is among our top issues, items that I 
speak to Foreign Minister Lavrov frequently about. I also had 
very extensive discussions directly with President Putin in the 
Kremlin when I saw him. We are asking for their help.
    I think Russia is evolving its own position relative to 
North Korea and we are looking for more support from them. I 
think two indications of late, one was their affirmative vote 
in the U.N. Security Council for the additional sanctions on 
North Korea. Typically, at best the Russians would abstain. 
This time they actually voted for these additional sanctions. I 
think that indicates that they see it differently. They have 
also made their own public statements that they see these 
activities by North Korea as being a threat now to Russia. So 
that is part of our dialogue with the neighborhood is look, 
this is not just a threat to us. This can become a threat to 
you as well.
    Mr. Keating. Well, thank you Mr. Secretary. I yield back.
    Chairman Royce. Thank you for yielding back, Mr. Keating. 
Now we go to Mr. Darrell Issa of California.
    Mr. Issa. Thank you. Mr. Secretary, I was delighted when 
you were named and I keep reminding my friends that one of the 
last great Secretaries we had was George Schultz who for 6 
years before, not immediately, but just before had run a global 
enterprise, one that was responsible for building large and 
small cities. And so I am going to kind of segue from that to 
one of the areas you inherited that I want you to be aware has 
been the intention of this committee and of the Oversight 
Committee.
    During the George W. Bush era under General Williams and 
others, the State Department began a standard design/build 
process. This allowed the State Department to go from an aging 
Embassy system that lacked security--and it was falling behind 
where most of the money was being spent just trying to keep 
crumbling Embassies going--to getting new modern facilities 
that were secure and predictable in operation.
    Upon the change of administrations, there was a change 
under Hilary Clinton and she began going back to the old 
practice of New York wine and cheese liberals happily designing 
works of art. And I am trying to be over the top for a reason 
because if you go to Great Britain where you find that glass 
palace on an undersized lot that we can't use that we are 
paying extra, what you find is a return to Embassies that might 
be works of art. They may make great statements about America's 
prowess and place in the world, but you are not being given, as 
you know, enough money to build Embassies just to provide 
security, the likes of which we didn't have at Benghazi. And we 
didn't have in a lot of other places. By the way, I was also 
thrilled when Ambassador Patrick Kennedy abruptly left with the 
team that I am glad to see go.
    So now my question to you is with the President's current 
budget quite frankly reduced in that area, can you by changing 
back to a process of efficient design and build, can you begin 
to get us caught up to where never again will we have people 
die because they have a facility that lacks the basic security 
required by your own regulations?
    Secretary Tillerson. Thank you for the question, 
Congressman. The current budget around security, both security 
services as well as Embassy construction, will allow us to 
maintain our program pretty much through 2018. We will begin to 
have planning difficulties in '19 at this level and we are in 
discussions, certainly we will have discussions with OMB about 
that.
    But I think to your point about our execution against 
Embassy construction, it really is an execution issue and I 
agree we need to get back to standard designs, fewer scope 
changes. We don't need to be unique every place. I am a fit for 
purpose guy and I think we need to build what is needed for us 
to deliver on mission. And there are some execution issues.
    I have been reading reports from OIG of audits they have 
been doing, the various projects and I recognize a lot of the 
deficiencies. I have seen them in the private sector when the 
private sector struggled with major constructions projects. So 
I think we have a lot of opportunity to improve that and get 
back to fit for purpose approach.
    Mr. Issa. I would like to follow up with another area on 
that and very briefly. Because you have OCO funding and because 
if we really look at your facilities around the world, they are 
often facilities in which Title 10 individuals and others 
assigned to you need to operate or at least coordinate in 
dangerous areas. So I might suggest that a very good investment 
of several billion dollars over the next several fiscal years 
would be to springboard ahead to have those facilities able to 
house both the diplomatic mission and coordinate other missions 
in the area. And I am thinking particularly of Africa and some 
of the other hot spots.
    What I would like to do is segue though to two things. One 
is you have 1,000 Marines available to you. This was a post-
Benghazi decision to plus up. I can tell you that when I hear 
that Papua New Guinea's facility gets stopped and a whole new 
one is getting designed and part of the justification is they 
needed room for Marines, again, Papua New Guinea, that perhaps 
looking where you best would have those 1,000 Marines could 
well be a good investment in moving them around. And of course, 
having them match facilities to the greatest extend possible 
that you plan on having and would otherwise build.
    Lastly, the President's budget did a 50 percent cut in an 
office which was Conflict Stabilization Operations which is 
under State, and the Office of Transition Initiatives which is 
under USAID. We had previously sent your agency under the last 
administration letters asking you to combine those two. And 
with the budget having a 50 percent cut, could you consider 100 
percent cut by combining them, deciding who gets this job 
either State or USAID, but not both?
    Secretary Tillerson. Well, again, I think part of our whole 
redesign is to look at exactly the kind of issues you have 
identified of where have duplicative work efforts, overlap of 
work, not just within the State Department, but we find it 
interagency in Ag, Commerce, Defense. And so this is going to 
be examining all of these areas which ultimately I suspect will 
lead certainly to combined efforts. Delivering on mission for 
less cost.
    Mr. Issa. Thank you. I yield back.
    Chairman Royce. Thank you. I appreciate that. This 
committee will recess at 10 minutes before noon to allow us to 
join our colleagues on the House Floor and following the prayer 
and pledge, there will be brief remarks from the Speaker and 
the Democratic leader concerning the shooting incident this 
morning. Then this hearing will resume afterwards at 12:30 or 
so. I would like to thank the Secretary for his flexibility. We 
will adjourn here no later than 1:30. So at this time, let me 
go to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary for being here. I think it is very clear that the 
devastating cuts proposed in this budget would make it nearly 
impossible for America to lead the world and it is why it has 
been decried by virtually every serious diplomat, scholar, and 
development expert. So I want to associate myself with the 
remarks of my colleagues about this budget and what it would 
mean for our diplomatic work.
    I have very specific questions, Mr. Secretary, which I 
would ask you to answer with a yes or no if you can, so I can 
get through as many of them as possible.
    First, Mr. Secretary, I assume you are familiar with the 
First Amendment and the rights that it affords to the American 
people?
    Secretary Tillerson. Yes.
    Mr. Cicilline. And do you believe that an open and 
unrestricted press is a vital part of a transparent and 
accountable government?
    Secretary Tillerson. Yes.
    Mr. Cicilline. And in your observations, do China and 
Russia have a free and unfettered press, free from government 
influence?
    Secretary Tillerson. No.
    Mr. Cicilline. And so do you believe that Chinese and 
Russian media sources reliably and accurately report meetings 
or conversations between U.S. Government officials and their 
governments?
    Secretary Tillerson. Not likely.
    Mr. Cicilline. So do you believe that it impacts the 
narrative or sends any type of message to the leaders of 
Russia, China, or other authoritarian-leaning governments when 
American media is excluded from reporting on significant events 
involving yourself, the President, or other senior American 
diplomats?
    Secretary Tillerson. I am not sure I understood that one.
    Mr. Cicilline. Do you believe it impacts the narrative or 
sends a type of message to the leaders of other countries when 
American media is excluded from reporting on significant events 
involving you, the President, or other senior American 
diplomats? You may remember a meeting in which American media 
was excluded and Russia media was permitted in the Oval Office?
    Secretary Tillerson. It is hard for me to say what impact 
that particular limited incident had.
    Mr. Cicilline. Next, Mr. Secretary, you are aware that the 
Chechen Government, which is an arm of Vladimir Putin, has been 
engaged in a concerted campaign of kidnapping, detention, 
torture, and murder of gay men in Chechnya, are you not?
    Secretary Tillerson. I am aware of those reports, yes.
    Mr. Cicilline. And my colleagues and I sent you a letter 
raising this issue on April 7th of 2017 and my question is did 
you discuss the issue of these atrocities being carried out in 
Chechnya when you met with the Foreign Minister Lavrov on May 
10th or any other government officials at any other time?
    Secretary Tillerson. Those are on our pending list.
    Mr. Cicilline. So you have not discussed them at all?
    Secretary Tillerson. We did not make our way through all 
the issues in the meetings we had.
    Mr. Cicilline. Are you aware whether the President has 
raised this issue with President Putin?
    Secretary Tillerson. I am unaware of whether he has or not.
    Mr. Cicilline. But will you here today in this hearing, 
condemn the torture and murder of gay men in Chechnya and state 
that is the policy of the United States Government at the 
highest levels that the Russian Government must protect the 
lives and safety of all of its citizens including the LGBT 
community?
    Secretary Tillerson. That is our position globally.
    Mr. Cicilline. And in Russia as well?
    Secretary Tillerson. Last time I checked, Russia is part of 
the globe.
    Mr. Cicilline. So that is a yes?
    Secretary Tillerson. Yes.
    Mr. Cicilline. Next, Mr. Secretary, I assume you are 
familiar with the events that took place in Washington, DC, 
outside of the Turkish Embassy on May 6th?
    Secretary Tillerson. I am.
    Mr. Cicilline. I assume you do not believe it is 
appropriate for a foreign security force to assault Americans 
on American soil?
    Secretary Tillerson. I do not.
    Mr. Cicilline. Have you or the President had conversations 
with President Erdogan or the Turkish Ambassador about this 
incident?
    Secretary Tillerson. We called the Turkish Ambassador over 
to the State Department immediately and spoke to him. I have 
had face-to-face conversations with the Foreign Minister 
Cavusoglu on the margins of the NATO meeting. The matter is 
under investigation by Washington, DC, police and the court 
system and we are awaiting conclusion of that investigation for 
further action.
    Mr. Cicilline. So once those prosecutions are concluded, 
you will consider actions in response to this egregious 
attacks?
    Secretary Tillerson. We want our action to be consistent 
with what the investigation shows.
    Mr. Cicilline. And do you believe it is the purview of the 
United States Government to sell weapons to the very same 
security forces who committed this attack?
    Secretary Tillerson. It is under evaluation.
    Mr. Cicilline. Next Mr. Secretary, when can Congress expect 
to receive the administration's plan to defeat ISIS and end the 
conflict in Syria?
    Secretary Tillerson. We have an recent update with the 
President on the plan going forward, both militarily, 
diplomatically, and then how to confront ISIS, the D-ISIS 
campaign globally, both in the communications networks and to 
deny them the financing. It is a global approach.
    Mr. Cicilline. When can Congress expect a presentation of 
those plans?
    Secretary Tillerson. I am not aware that there has been a 
request for one.
    Mr. Cicilline. Consider this one, at least from one Member 
of Congress. And finally, Mr. Secretary, would you say that our 
past efforts to counter Russian aggression in Europe and 
Eurasia have been successful?
    Secretary Tillerson. It is a work in progress and it 
requires work every day.
    Mr. Cicilline. But has it been successful?
    Secretary Tillerson. We have had some success. I think if 
you look at how certain countries in East Europe have 
progressed, progress in the Balkans, but challenged.
    Mr. Cicilline. So my question is in light of that, after an 
unprecedented attack against our own elections, evidence of 
Russian attempts to hack and influence elections throughout 
Europe, as well as other mischief, how do you propose to 
adequately counter the Russian threat with the budget that is 
decimated by almost 60 percent in the account for countering 
Russian aggression? We haven't been successful and your budget 
proposes cutting it by 60 percent. How can we be successful in 
countering Russian aggression with those kinds of resource 
reductions?
    Secretary Tillerson. Our engagement is going to continue 
with those nations in East Europe that are most threatened. If 
we had additional funds, we would fan that back out to do more 
than some other countries, but we are going to remain engaged 
with those countries.
    Chairman Royce. We go briefly to----
    Mr. Cicilline. Mr. Chairman, may I ask unanimous consent 
that the following three documents be placed in the record?
    Chairman Royce. Without objection.
    Mr. Cicilline. Thank you.
    Chairman Royce. We are going to go briefly to Scott Perry 
of Pennsylvania and then we will recess.
    Mr. Perry. Great to see you. I for one, although I might 
take some differences with some of the lines in the budget 
request, am thrilled that we finally have a commander in chief 
that is interested in balancing the budget of the United States 
and I do consider that a national security priority.
    With that, Mr. Deutch asked you about the Palestinian 
Authority and the 10 percent increase. And I will tell you, at 
least one of us and probably more than one that is concerned 
and somewhat tired of continuing to fund the PA and hearing 
somewhat of the same rhetoric where we are going to discuss it. 
We are considering it. We have a commitment to end this stipend 
to murderers and terrorists and I am just wondering if you have 
a glide path and I don't want to get into any discussion that 
would imperil your ability to be effective in this regard, but 
is there some way that you are using to assess how they are 
doing with that and to claw back some of that funds and use it 
for other things if they fail to comply with their commitment, 
whatever that is?
    Secretary Tillerson. Well, I think the President has been 
very clear with the Palestinian Authority over actions he 
expects them to take and he has indicated that he has a certain 
window of patience and a certain window under which he is going 
to remain engaged and be interested and at some point he is 
going to become disinterested.
    Mr. Perry. Okay.
    Secretary Tillerson. And if we become disinterested, that 
will certainly alter our level of support.
    Mr. Perry. So we will just note, we will be monitoring and 
we will probably look to follow up to see if that, in fact, 
takes place.
    You also had a conversation regarding the IRGC and 
designating them. I would like to throw the Muslim Brotherhood 
in there as well, two organizations, actors if you will, that 
have the specific interest of the destruction of the West, 
particularly the United States. And while there might be some 
good components, if you want to characterize it that way for 
these organizations, I would like to engage in a little bit of 
a short conversation about designating each one of those 
sponsors of terrorism--what the pitfalls might be of doing so. 
What are the American people missing because they know they are 
bad actors. So what are we missing that we need to know about 
that it is deleterious to designate these obvious sponsors of 
terrorism for what they are?
    Secretary Tillerson. Well, as you just noted, the Muslim 
Brotherhood, which I think reportedly would have up to 5 
million members, has become somewhat segregated within its own 
ranks with the number of organizations within the Muslim 
Brotherhood, continuing to commit themselves to violence and 
terrorism. We have designated those organizations.
    At the top of the quality chain--if I can call it that--
there are elements of Muslim Brotherhood that have now become 
part of governments. There are members of Parliament in Bahrain 
that are parts of government. There are members in Turkey that 
are parts of government. And so in designating the Muslim 
Brotherhood in its totality, as a terrorist organization, I 
think you can appreciate the complexities this enters into our 
relations with then the Government of Bahrain, and other 
governments where the Muslim Brotherhood has matriculated to 
become participants and in those elements they have done so by 
renouncing violence and terrorism. So that is one of the 
complicating issues around just taking a whole designation of 
Muslim Brotherhood. But I will tell you it is on our watch 
screen. We have not taken our eye off of it and we revisit this 
question periodically because it comes up in our foreign 
relations with others as well.
    Mr. Perry. And I certainly appreciate the answer. I just 
hope that we do not allow the more moderate ones, the ones that 
denounce violence, to have the organization use them to be the 
umbrella under which they conduct all these other things, which 
is the specific downfall of the United States and do continue 
vigilance.
    Finally, and the last question, Mr. Chairman, with your 
indulgence, the deal with Saudi Arabia and I couldn't get an 
answer on specifically how we were monitoring their support, 
the continued support of the exportation of Wahhabism, 
Salafism, and the terror that goes along with that 
fundamentalist view of Islam around the globe.
    Do you know of any metrics that the Department is following 
to support their claim that they are working on that? What are 
we gauging that? How are we doing to determine whether they are 
following along with that portion of the agreement?
    Secretary Tillerson. One of the outcomes of the President's 
summit in Riyadh was the creation of the Center to counter 
extreme Muslim messaging with Saudi Arabia. The Center now 
exists. It was inaugurated while we were there. The Center has 
a number of elements to attack extremism around the world. One 
of the elements that we are visiting with them about and they 
have already taken steps, the Saudis, is to publish new 
textbooks that go into the schools that are in the mosques 
around the world. These textbooks are to replace textbooks that 
are out there today that do advocate extreme Wahhabism 
viewpoints around the justification for violence.
    We have asked that they not just publish the new textbooks, 
we have asked that they retrieve the existing textbooks so we 
get those back. That is just one example. This Center is going 
to have a very broad range from social media to broadcast, to 
how young Imams are trained in the theological centers. And we 
are working with them today with the establishment of the new 
center to determine what are the measures that we will hold 
ourselves accountable to. That is one of the charges that the 
State Department is working with the Saudis and others as we 
bring this Center up to an operating level.
    Mr. Perry. Thank you, Mr. Secretary. My time has expired 
and I yield.
    Chairman Royce. And without objection, the committee stands 
is recess and will return at approximately 12:30.
    [Recess.]
    Chairman Royce. We will begin at this time and we will 
begin with questioning from Mr. Ami Bera from California.
    Mr. Bera. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for your patience in this reconvening.
    Now this is a tough day today, but it is with thanks to the 
Capitol Police. It is with thanks to the men and women that not 
only protect us, but all across this country, protect not only 
communities across the country, but the men and women that are 
around the world protecting who we are.
    You know, I have stated this previously in committee. A 
world led by American leadership is a better world and we can 
see that if we look back at the second half of the 20th century 
and the post-World War II world order. American leadership--
leading with our values, with our morals--has created a better 
world and most around the world recognize that. And that has 
really been predicated on a foreign policy plank that has three 
legs, certainly, our defense, but also development and 
diplomacy.
    And my concern with this budget is that it cuts off two of 
those legs on that stool and that stool is going to collapse. 
It devastates the diplomacy and development budget.
    Now I know it is not your budget, Mr. Secretary, but as 
Members of Congress who have a responsibility for setting 
priorities, etcetera, I have grave concerns and can talk about 
a number of areas that I find very troublesome in this budget. 
I am going to focus--I am a physician by training with a public 
health and global health background, and have some real deep 
reservations about some of the cuts to our global health 
development, some of the cuts to USAID, particularly a 15 
percent cut to maternal and child health programs. That is very 
worrisome to me, the impact that those cuts potentially have 
around the world.
    I think America is a great Nation, but a great Nation leads 
by our values and our morals and we don't withdraw from the 
world. So my concern is if those cuts go into effect, the 
number of women that potentially will suffer, the number of 
women that potentially will die. I think some of the cuts with 
regards to a potential billion dollar reduction from PEPFAR, 
the zeroing out of family planning funds, are going to have 
devastating impacts.
    I watched them and read the testimony and the question of 
our colleague across the Capitol, Senator Shaheen, discussing 
the extension of the Mexico City policy. I heard your answer to 
that, that your office would be studying the impact of the 
extension of the global gag rule.
    Can you give us assurances that in that 6-month time frame 
when you get that report back, if we are seeing adverse 
impacts, that you would make recommendations to reverse that 
policy?
    Secretary Tillerson. Congressman, thank you for the 
attention to that particular matter. I can't commit to you that 
I would seek a reversal of that policy. As I explained to 
Senator Shaheen yesterday, our implementation of the policy was 
structured in a way and engagement with a number of our health 
partners to mitigate any effect on delivery of their 
activities. We said we would do a 6-month check to see if it is 
impacting them and one provision I left out in my response to 
her yesterday is if it is impacting any particular areas of our 
healthcare that we did not intend to impact, then in 
consultation with the Secretary of HHS, I as Secretary of State 
can issue waivers and allow the funding to continue. So the 
reason we want to do the 6-month check is to see what impact 
does it have.
    Mr. Bera. Mr. Secretary, will you commit to providing us 
the results of that report and what you find at that 6-month 
check?
    Secretary Tillerson. We would be happy to share that.
    Mr. Bera. Great. I also have real reservations about the 
impact of PEPFAR. Now PEPFAR was started by a Republican 
President and has been a remarkable program saving thousands, 
if not hundreds of thousands of lives in Africa. I think 
President Bush would suggest that that is his proudest 
accomplishment.
    I would like to hear further commitment as we look at how 
we engage in global health around the world with partnerships--
and I understand that it is our responsibility to evaluate each 
program, that we have limited resource and limited funds--but I 
would like to have this commitment that we are going to look at 
how we work with nonprofits around the world, how we work with 
allies and other countries around the world to continue 
relieving suffering.
    Secretary Tillerson. That is a fundamental element of our 
approach to how we manage these reductions. Even with these 
cuts, the $1 billion cut to PEPFAR, we will continue to be the 
leader in health issues globally and PEPFAR is clearly 
recognized as a model program that should be replicated 
elsewhere.
    Mr. Bera. Thank you. I yield back.
    Chairman Royce. Thank you. We are going now to Mr. Paul 
Cook, vice chairman of the committee, of California.
    Mr. Cook. It is good to see you again, Mr. Secretary. I 
missed some of the testimony and I hope I am not being 
redundant, but I wanted to talk about the Muslim Brotherhood, 
the impact in Qatar, and quite frankly, Turkey, and the 
strained relationship, and how it is so difficult to find out 
one day you have an ally and the next day you might have an 
adversary. And I know that is going to be very, very 
challenging with the Saudis and what has happened in the past 
few weeks, as well as the on-going political situation in 
Turkey which affects the whole Middle East and our policy.
    If you could address that, I would appreciate it. I talked 
to you, I think last week, about the same thing. But Secretary 
Mattis had some input on it Monday night and it is one which 
doesn't necessarily have a military solution, but you are going 
to be right in the eye of the storm.
    Secretary Tillerson. Our relationship with Turkey is 
extremely important to the United States. It is also extremely 
important to NATO, to Europe and clearly we are concerned about 
the evolution of events, particularly since the coup attempt in 
Turkey. I have traveled to Ankara and obviously President 
Erdogan has been here. So our level of engagement with Turkey 
is at a very high level of communication and engagement.
    And where we have issues of concern, we are talking about 
those, discussing them. Clearly, they have some issues with how 
we are executing our military plans in Syria to defeat ISIS. We 
are concerned about their engagements with Russia. The European 
Union is concerned about the relationships. Turkey sits at an 
extremely important place geographically, but also 
geopolitically. So it is an important relationship. It is quite 
complex right now and our objective is not to worsen that 
relationship, but find ways to re-engage and strengthen it so 
that we can have some influence over the choices that they are 
making, particularly with respect to freedoms within the 
country, continuing their role and their construct as a 
democracy.
    Mr. Cook. Thank you, sir. I yield back.
    Mr. Smith. Would the gentleman yield?
    Mr. Cook. Sure.
    Mr. Smith. I thank my good friend for yielding. Mr. 
Secretary, I would ask you if you would to your thought about 
the waivers for the Mexico City policy in answer to my friend 
and colleague, Dr. Bera. I would hope that you would not go 
that route. That would have the perverse impact of 
incentivizing foreign non-governmental organizations to be 
noncompliant with the Mexico City policy.
    And I would point out to my colleagues that back in 1985, 
after Ronald Reagan first announced the Mexico City policy at 
the U.N. Conference in Mexico City, hence its name, there were 
large numbers of NGOs, foreign NGOs, that said ``We are not 
going to comply.'' I offered the amendment on the floor of the 
House of Representatives in 1985 which passed. And I fully 
expect we will have an all-out legislative battle on the floor 
again which I would welcome, with a policy that seeks to hold 
harmless unborn children in our foreign aid.
    Global health ought to be inclusive, not exclusive of 
unborn children who we know now beyond any reasonable doubt are 
harmed in a way that is violence against children, whether it 
be by dismemberment or chemical poisoning. Abortion is violence 
against children and it also has consequences in the negative 
for women.
    And the Mexico City policy, as you know so well, has three 
exceptions: Rape, incest, and life of the mother, which tracks 
what Ronald Reagan did and what George W. Bush did and what the 
first Bush did when he initiated the policy as well.
    And at the end of the day when it only applied to family 
planning organizations, when I offered the amendment on the 
floor, Olympia Snow and others said none of the groups are 
going to accept it. At the end of the day, all but two accepted 
it. And that was IPPF, based out London and Marie Stopes 
International. They all accepted it.
    So I would encourage you, waivers would be an incentive to 
a foreign, non-government organization, and again American 
taxpayers through the polling have shown clearly that they do 
not want our foreign aid subsidizing and enabling the killing 
of unborn children overseas or anywhere else. That is why the 
Hyde Amendment domestically enjoys such strong support. So I 
just would offer that thought.
    Chairman Royce. We go now to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair, and welcome, Mr. 
Secretary of State.
    I think today is the day where we all recognize our common 
humanity as my thoughts are with my colleague and the other 
folks impacted by the shooting. So I will try and be kind and 
gentle. I am always kind and gentle, aren't I?
    So in a very kind and gentle way, I want to say that I am 
sad to say that I think your budget is inhumane and dangerous. 
Okay. I had to say that.
    I don't want to turn this into an abortion fight at all, 
because that was not part of my remarks, but I just want to 
counter my colleague who I respect very, very much and just say 
that women having full access to reproductive choice and care 
is imperative for them to have a full and productive life and I 
think it is important to the security of their community. But I 
am going to move on.
    I wanted to mention, I remember the President said, I think 
he said he inherited a mess in talking about international 
affairs, so to me it is very perplexing that he inherits a mess 
and then you come in with a budget with almost a one-third cut 
in State Department activities.
    Over 120 retired Four Star Generals sent a letter opposing 
the cuts, saying this is not the time to retreat. Secretary 
Mattis, when he was Commander of U.S. Central Command says, 
``If you don't fully fund the State Department, then I need to 
buy more ammunition.'' I guess this is the Trump doctrine 
because he is putting billions of more dollars into ammunition 
and cutting, as my colleague said before, two of the legs of 
our national security which are diplomacy and development.
    I want to focus on what I think is one of the crown jewels 
of our development efforts and that is our global health 
investments. I know you would probably agree that diseases do 
not recognize international borders. Every year, almost 80 
million people from other countries visit the United States. 
This was in 2016 and Americans took more than 77 million 
international trips. We have hundreds of thousands of military 
living overseas. So U.S. global assistance helps not only to 
protect people in other countries, but it protects the United 
States.
    I hope you would agree that these health initiatives help 
keep countries stable. When you have, one of my colleagues 
mentioned famine, but if you have disease, you have famine, you 
have inhumane conditions, it promotes not only people trying to 
escape the country, but it destabilizes countries creating an 
environment for terrorism.
    George Bush, one of his greatest achievements was PEPFAR, 
which put us on track to end AIDS as a public health threat by 
2030. I know you yourself have said it is a model for the world 
to follow, yet the President's budget cuts this by $1.1 
billion.
    The Global Fund, which controls the spread of malaria, TB, 
and HIV, also is being cut by $225 million. And I know people 
have said why should we care what is happening in these other 
countries? I think that is going to the questions I want to ask 
you which is this, Mr. Secretary, why should we care about 
diseases in other countries?
    Secretary Tillerson. Well, Congresswoman, I think you just 
gave the explanation for why we should care and I do not 
think----
    Ms. Frankel. --all right, well, I will go on.
    Secretary Tillerson. What I would point to, I know we are 
focused on the cuts. I think it is important to also focus on 
how much we still will be committing and spending toward these 
diseases, toward our global health efforts. We are not zeroing 
health out. These were difficult choices that were made in the 
budget. We do believe that we can attract others and other 
funding and enable the continuation of these programs. And 
there is no stepping back from our commitment on PEPFAR to the 
countries. We are going to fully meet the commitments on our 
AIDS programs in PEPFAR. We are fully meeting our commitments, 
fulfilling our 5-year pledge to Gavi. We don't intend in any 
way to abandon our efforts or abandon our view of how important 
these issues are.
    Ms. Frankel. Thank you, Mr. Secretary.
    Chairman Royce. We go to Mr. Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here.
    A few questions. First, I want to ask about Iran. There is 
a lot of agreement that Iran has violated the spirit of the 
JCPOA. Have you seen any evidence that Iran has violated the 
letter of the JCPOA?
    Secretary Tillerson. Well, we will await the quarterly 
report from IAEA to see if they have found any specific 
violations. I have read the entire JCPOA agreement now for 
myself, so I can understand this spirit and intent. Quite 
frankly, it is a poorly constructed agreement. The bar for 
Iran's compliance is pretty low. And so it should not come as a 
surprise to people that they are able to comply. It is not that 
difficult for them to comply.
    Having said that, we intend to have a rigorous application 
of the compliance requirements and a rigorous confirmation from 
the IAEA that they are complying.
    The whole spirit and intent question is one that obviously 
is always open to interpretation by both sides. And 
importantly, remember the JCPOA is a multi-lateral agreement, 
so we have partners I would say that were on our side of the 
table, best I can tell. They will have their interpretation of 
that as well.
    Mr. Zeldin. Thank you. And your predecessor pointed out 
that it was a political commitment. It wasn't a treaty. It 
wasn't an executive agreement. It was a political commitment, 
one that we didn't even ask for a signature on, an unsigned 
political commitment.
    Does the administration recognize Jerusalem as the capital 
of Israel?
    Secretary Tillerson. The administration has not expressed a 
specific view in that regard.
    Mr. Zeldin. I would state my own position. I believe 
strongly that the administration should recognize Jerusalem as 
the unquestionable capital of Israel.
    Will the administration eventually move the American 
Embassy in Israel to Jerusalem?
    Secretary Tillerson. That decision is under evaluation by 
the President. Obviously, he will have to make a decision 
coming up on whether to extend a final decision on that or not. 
He has not made that decision to my knowledge.
    Mr. Zeldin. And the President was absolutely correct during 
the campaign when he had stated his position and intent then of 
moving the Embassy and I would encourage him to go with his 
instinct from the campaign and follow through with that pledge.
    How do you believe the United States can better leverage 
our foreign aid that we provide to the Palestinian Authority?
    Secretary Tillerson. Well, I think again our engagement 
with them and our making clear on our expectations of how aid 
is utilized. One thing I would like to clarify from this 
morning's hearing, several times in the questions people 
suggested our support to the Palestinian Authority was 
increasing next year. That is inaccurate. It is actually going 
down about $20 million, if I remember correctly.
    And to remind everyone, our aid does not go directly to the 
Palestinian Authority. It is given to them by way of Israel and 
we work closely with them as to how that money is delivered and 
for what purposes it is delivered.
    Mr. Zeldin. And I appreciate that point. And I would offer 
that whatever the United States can't do to the Palestinian 
Authority, legally, we should also have the position that we 
also cannot do for the Palestinian Authority indirectly.
    I cosponsored the Taylor Force Act, as I know a number of 
my colleagues in the House and the Senate did as well. I 
believe it is now one that has bipartisan support over on the 
Senate side. And I wish a better leverage of the aid that is 
provided for the Palestinian Authority which includes providing 
certifications that the Palestinian Authority is not inciting 
violence. And as in the name Taylor Force Act, the United 
States Military Academy graduate, the Palestinians are not only 
inciting violence to target innocent Israelis, but they are 
doing so to target Americans as well.
    Secretary Tillerson. Congressman, just so you are clear. It 
was with that strong bipartisan sense of the Congress that we 
have taken the position with the Palestinian Authority in a 
very unequivocal way, that you either take care of this 
yourself or someone else is going to take care of it for you. 
And those are the words I have used with them.
    Mr. Zeldin. And you have strongly stated in recent 
statements where you have mentioned that the President brought 
this up with Abbas, that you have received assurances. It is in 
the news today that there are Palestinian officials pushing 
back on your position that the Palestinian Authority has agreed 
to stop providing these payments to financially reward terror 
and I really do wish you the absolute best as Secretary of 
State in your pursuit here. And I would love to talk to you 
further about those efforts moving forward in the weeks, 
months, and years ahead. I yield back.
    Chairman Royce. We go now to Mr. Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman. Thank you, Secretary, for 
being here today and for your testimony. Obviously, cooperation 
between Congress and the State Department is important, but I 
am concerned over what looks like a lack of cooperation within 
the Executive.
    The policy of the White House and the State Department has 
not been completely aligned over the last several months. For 
example, mere minutes after you stated that the Saudi and 
Emirate blockade of Qatar hindered U.S. military action against 
ISIS, President Trump took to Twitter to praise the blockade.
    As you attempted to form an international coalition to 
isolate North Korea for its nuclear weapons program, President 
Trump called North Korean leader Kim Jong Un ``a smart cookie'' 
and said he would be ``honored to meet him'' hurting your 
efforts.
    Your efforts to assure our European and Asian allies have 
our commitment to alliances have similarly been undercut by the 
White House and the President.
    It was reported that when Prime Minister Netanyahu and 
President Trump stood up at their press conference and broached 
the idea of a one state solution instead of a two state 
solution, that you were in an airplane somewhere else and that 
the State Department was not part of those discussions.
    So my question is how can Americans and our allies around 
the world have confidence in your word, in the State 
Department's position, and most of all that it represents what 
President Trump believes?
    Secretary Tillerson. Congressman, just to be clear, there 
is no gap between the President and myself or the State 
Department on policy. There are differences in terms of how the 
President chooses to articulate elements of that policy. In the 
instance of the Qatar example that you gave where I made a 
statement, the State Department. I then attended a bilat with 
President of Romania with President Trump and then he made his 
statement in the Rose Garden. I was involved in writing his 
comments in the Rose Garden to reflect the strong message he 
wanted to send which was not just to Qatar, but he said to 
everyone, to all countries, to stop the funding, stop the 
killing, stop teaching your young people hate. That was the way 
he wanted to deliver. He wanted to deliver a very strong 
message----
    Mr. Castro. Mr. Secretary, I know that.
    Secretary Tillerson. There is no daylight between he and I.
    Mr. Castro. I hear you. Jared Kushner has been given, 
reportedly given a big portfolio with respect to foreign 
affairs. Who is responsible for the foreign affairs of our 
country? Is it the Department of State and yourself or is it 
Mr. Kushner and the White House?
    Secretary Tillerson. It is the Department of State and 
myself and that has been reconfirmed by the President to me on 
multiple occasions.
    Mr. Castro. And part of the reason I ask these questions, 
in February I was in Japan and South Korea and this was the 
biggest question people had. When we look to the United States, 
who speaks for the President reliably? Whose word can be 
trusted?
    I know you can understand how important that is for our 
allies and also for our adversaries. So why would the State 
Department be left out of any discussion about one of our most 
important foreign policy issues, whether you are going to have 
a one state solution or a two state solution? You can see how 
that is quite strange and bizarre.
    Secretary Tillerson. Well, I think that came out of the 
bilateral private meeting between the President and Prime 
Minister Netanyahu. And I think to be fair, what the President 
was indicating is that whatever approach the two sides, the 
Palestinians and the Israelis, want to take to achieve a peace 
accord, we will support. I think what he was saying is we are 
prepared and he is prepared to put his shoulder to the wheel to 
see if we can move a process along and he is going to be 
unconstrained to exploring any and all other alternatives. 
Because the alternatives everyone has pursued now for so many 
years have not produced a result. And I think these are some of 
the changes that people have a difficult time perhaps 
understanding tactically.
    Mr. Castro. And thank you for that.
    Secretary Tillerson. The President is saying let us explore 
everything.
    Mr. Castro. Let me just make one last comment. First, I 
don't mean it as a knock on your leadership or your record at 
the Department. I believe that you have put in a very difficult 
position. And it is not just yourself. It is other members of 
the Cabinet where they essentially will make a statement, 
believing what they believe to be the President's position, 
only to have the President go on Twitter or otherwise make a 
contradictory statement. But in all of it, it is very 
unsettling for Americans to try to understand where our 
Government is headed, where the President is headed. But even 
more unsettling for allies who are not in the United States and 
have no other indicators than what they hear on the news. So we 
would just ask, I would just ask for I guess more 
thoughtfulness from the Executive Branch on how they approach 
these things.
    Chairman Royce. So we go now to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. Mr. Secretary, good 
seeing you again. Appreciate your being here.
    As we talked the other day about 10 years ago, there were 
25 conflicts around the world. Today, there are over 75. There 
are certainly no shortages of great challenges in the world. 
But with the challenges come great opportunities, so I see 
great things in store for you, for our Nation, and hopefully 
for the world.
    I feel some of my colleagues aren't accepting the fact that 
we are $20 trillion in debt and that austerity measures are 
coming. We have reports where we are going to be in 5 to 6 
years and we are looking at Puerto Rico. We are looking at 
Greece and we don't want to go there.
    So we do have to reform some of these programs and that 
leads to the current budget, that we continue the programs that 
work and we get the results. We get the results that we are 
looking for and get rid of the programs that aren't working.
    We were in the DRC with Chairman Royce and I remember 
sitting there at the table with the ministers and we are going 
around and talking about things and I asked the people at that 
table, and keep in mind we have given hundreds of billions of 
dollars. What do you do for your social programs? And they 
asked me, what do you mean? I said feeding the hungry, housing, 
healthcare. And he goes we have you. Those aren't good programs 
and we need to reform those and we need to put pressure on 
those kind of countries.
    The comment that President Trump said make America great 
again, put America first. I truly believe in that. And I think 
it has taken out of context because the only way we can become 
great or we can become first at whatever we do is to look out 
for the partners that we are working with and that comes 
through diplomacy in your agency. And I have a lot of 
confidence in your business acumen that you can transfer those 
to the State Department. I have watched you since you have come 
in and I am just a big fan of what you can do.
    I know we are in separate branches of government. And look 
at this committee--I chair the Asia Pacific Subcommittee as we 
talked about--of how we can partner together to work on those 
commonalities.
    And with that as you know yesterday, Panama terminated the 
diplomatic relationships with Taiwan. It is the latest in 
China's effort to restrict Taiwan's international space and 
including the blockade of Taiwan delegation at the World Health 
Assembly. To me, this is unconscionable to say to another 
nation, and I feel like what other people have said, they are a 
nation that I recognize. And I know it is in a tough situation 
because we have had that policy since President Nixon. But 
saying that and China says they are going to be a reliable 
partner to bring North Korea to the table.
    When we look at what China has done, they have increased 
their trade with North Korea, 37.4 percent in the first 
quarter. Chinese imports of North Korean iron has increased 270 
percent in January and February, yet no Chinese firms have been 
subjected to U.S. secondary sanctions. I have heard you talk 
about that. It looks like we are moving in that direction. And 
I commend you for that. Can we realistically rely on China in 
lieu of their past experience or actions?
    Secretary Tillerson. Well, first just to remind you that 
our North Korea policy really went into effect late February, 
early March when we began to execute that and so we recognize 
there was a lot of activity going on early in the year and 
through the first quarter and that is what we have been trying 
to attack.
    We recognize what China is doing to put pressure on smaller 
countries. They are using the power of their trading relations. 
They are using the power of aid that they have gone in and 
provided to smaller countries. And in my trip that I recently 
made down to Australia and New Zealand in my meetings I have 
had with members of ASEAN, we are hearing this directly from 
them, that they are not only feeling this pressure, it is being 
put right in front of them to say you either sever relations 
with this and so or we are going to end our trading 
relationships with you.
    Even large countries are being threatened in this way. And 
our conversations with the Chinese about this next 50 years of 
stability and prosperity, we are being clear to them that you 
are destabilizing what has been a stable relationship with 
these actions. If this is where you are going, you are going to 
create instability and you are going to take this balance that 
has maintained a period of non-conflict, you are going to upset 
that balance.
    Mr. Yoho. Right.
    Secretary Tillerson. So these are the kind of high-level 
discussions we are having with the most senior levels of the 
Chinese leadership. You have to think about where does this go? 
Where does this lead? And what are you going to force as a 
response to that? So we are very mindful of it. We see it 
happening and we see it as threatening stability in the region.
    Mr. Yoho. I agree. And I am out of time. My last statement 
is I hope we stay in honor of the Taiwan Relations Act as we 
have in the past.
    Mr. Chairman, thank you.
    Chairman Royce. Thank you. Thank you, Mr. Yoho. As I 
mentioned before, this hearing will conclude at 1:30. The 
Secretary has been very flexible and he does have other 
commitments. So if the members will be brief and not be 
compelled to use their full time, we want to give everyone a 
chance in the next 20 minutes. And we will go to Robin Kelly of 
Illinois.
    Ms. Kelly. Thank you, Mr. Chairman. Thank you, Secretary, 
for coming to the House Foreign Affairs Committee. You are 
actually the first government witness I believe to appear 
before the full committee, so I thank you for that.
    The official mission statement of the State Department 
reads, ``The Department's mission is to shape and sustain a 
peaceful, prosperous, just, and democratic world and foster 
conditions for stability and progress for the benefit of the 
American people and people everywhere.''
    In your testimony, you stated that the State Department's 
primary focus is to protect our citizens at home and abroad. 
And to me, that sounds more like the mission of the Defense 
Department than the State Department. So has the mission of the 
U.S. State Department changed somewhat under President Trump?
    Secretary Tillerson. The mission statement that you just 
read is one that is very powerful. And that I would certainly 
support. Having said that, it was a statement developed under 
previous administrations.
    Part of this redesign opportunity we have in front of us, a 
lot of the elements that we learned out of the listening 
sessions, was there is some confusion over the mission. And 
that confusion doesn't just exist as of today. It has existed 
for some time.
    I think we do owe it to ourselves with the input and help 
of our colleagues in the State Department to do a better job of 
articulating what is the enduring mission of the State 
Department that endures regardless of what political party may 
be in place at any given time because the State Department is 
here constant. We understand that the will of the American 
people changes and can change from one election to the next, 
but the State Department must have a mission that delivers 
regardless of what the policy decisions may be that change from 
time to time.
    And I think that is a conversation we really need to have 
with ourselves inside the State Department, with our 
colleagues, and that is the mission statement that I am in 
search of is what will endure regardless of who may be 
occupying the White House.
    Ms. Kelly. Thank you. I do agree with most of my colleagues 
said about the budget cuts. I have a lot of concern and a 
recent article by Mike Mullin and James Jones, two 
distinguished military leaders, specifically cited cuts to 
USAID as risking U.S. national security. And they go on to 
specifically say that ``in the 21st century, weapons and war 
fighters alone are insufficient to keep America safe.''
    Mr. Chairman, I ask to submit the entire article into the 
record.
    Chairman Royce. Without objection.
    Ms. Kelly. I also have concerns about the staffing up that 
needs to be done because that will help you do the job you need 
to do if you have the people you need to have. Is there a 
backlog of policy recommendations now because of the lack of 
staffing?
    Secretary Tillerson. There really is not. And again, I want 
to recognize that every job is filled today, either a Deputy 
Assistant stepped up to be the Acting Assistant, or an Acting 
Assistant has stepped up to be the Under, if necessary. And 
these are remarkably good people, competent, dedicated. I have 
had a lot of conversation with them about how I know it is 
difficult to be the acting, but they are doing a superb job. I 
have great confidence in them. They travel with me when I go 
overseas. These are the people that help me develop the policy. 
They are executing the policy and they are doing an 
extraordinary job.
    Ms. Kelly. Okay. Because of time, I will yield back.
    Chairman Royce. Thank you for yielding back. We go to Brian 
Mast of Florida.
    Mr. Mast. Thank you, Chairman. Thank you, Secretary, for 
your time today. Just a couple quick questions. Do you have any 
plans to bring Vladimir Putin a red reset button?
    Secretary Tillerson. I don't think you can reset anything. 
We are where we are. We just have to address the conditions as 
they exist.
    Mr. Mast. Do you foresee turning a blind eye if Russia were 
to invade any other sovereignty?
    Secretary Tillerson. Certainly not.
    Mr. Mast. Do you anticipate President Trump whispering in 
the ear of the Russian President saying he would have more 
flexibility after the next election?
    Secretary Tillerson. I would not expect that President 
Trump has any intent to do anything other than to try to 
restore this relationship to something that is in the interest 
of the American people.
    Mr. Mast. Do you anticipate mocking the threat of the 
Russian influence on the United States by saying the 1980s want 
their foreign policy back?
    Secretary Tillerson. I think we will be articulating our 
own view toward Russia which I have described in some respects 
today.
    We take the relationship with Russia as serious. They are a 
global nuclear power. Having said that, we have a number of 
troubling issues with them in front of us to deal with.
    Mr. Mast. Do you think there is any level of funding that 
can make up for actions like that?
    Secretary Tillerson. I think this is going to be just very 
hard work of diplomacy, coupled with some strong actions that 
have been taken already and the prospect of what the Congress 
can enable us to do with stronger actions if we cannot get 
progress.
    Mr. Mast. Do you believe that it is more important, the 
words and the actions that you undertake, than any level of 
funding that you try to meet?
    Secretary Tillerson. Well, today, in restoring that 
relationship, it is not an absence of funds that is in any way 
preventing us from continuing to work to identify our areas 
where we may find cooperation to begin to build some level of 
trust and confidence. Funding is not an issue in terms of how 
we are working with Russia today.
    Mr. Mast. Thank you for your remarks. I yield back.
    Chairman Royce. We go now to Dina Titus of Nevada.
    Ms. Titus. Thank you, Mr. Chairman. And thank you, 
Secretary. I, too, share my colleagues' concerns about the 
devastating budget cuts and also about the lack of senior 
leadership at the State Department. I don't see how we can move 
forward in a leadership role in the world with those two 
things, those two problems hanging over us.
    But I want to go back to the questions that Mr. Castro 
raised. I don't believe our country has a singular voice when 
it comes to foreign policy. And that concerns our allies and it 
also emboldens our adversaries because nobody knows who to 
believe. Now he mentioned several examples, Qatar, the incident 
that occurred recently; the peace talks in the Middle East. But 
I would like to bring up a couple of others.
    You weren't part of the discussion to withdraw from the 
Paris Climate Agreement. And I believe you have said that you 
are opposed to that, that we should not have done that. I would 
like to ask you why you think this was a bad idea and is there 
any way with all this limited funds that we can move forward in 
any way as a leader on climate change?
    The second one I would like to ask you to address is in the 
written statement, you say the U.S. and I quote, ``Will 
continue to be the leader in international development, global 
health, democracy, and good governance initiatives, and 
humanitarian efforts.'' Yet, the President has said that we 
don't really care about what other countries are doing 
internally, only how they relate to us. It is not up to us to 
interfere. I believe the quote was, ``We are not here to tell 
other people how to live, what to do, and who to be.''
    Would you tell us how that kind of jives with what you have 
said?
    Secretary Tillerson. With respect to the decision to 
withdraw from the Paris Climate Accord, I was part of that 
interagency process. What I would point out to you is this is a 
decision the President could easily have taken the first week 
after inauguration, that he clearly indicated in his campaign 
he intended to.
    I think it is noteworthy that he took some time to think 
about it. He deliberated on it. We had a couple of different 
sessions on it with him. He waited until he took his first 
overseas trip and attended the G-7 so he could hear directly 
from others that the issue is quite important to. And then he 
came home. He had one more deliberation. It was on a telephone 
conference call which I participated.
    I was free to express my views. I took a counter view to 
the decision that was made, but I fully appreciate the elements 
behind why he took the decision.
    Ms. Titus. Can you tell us why you have a counter position? 
Why you don't think it was a good idea to pull out?
    Secretary Tillerson. As I have expressed publicly, and I 
expressed to the President, I think having our seat at the 
table around the Paris Climate Accord to continue to have 
influence on the issue itself, continue to represent America's 
efforts because America has done an extraordinary job of 
dealing with our own greenhouse gas emissions without heavy-
handed regulation. And just because we have walked away from 
targets that were set under Paris is in no way indicative of 
our intent to walk away from that continued improvement.
    I think America's businesses and private and public 
enterprises have no intent of changing that commitment. So my 
view was, as a diplomat, it is an opportunity for engagement. 
And I take every opportunity for engagement I can. This is an 
issue that is very important to many of our allies.
    Ms. Titus. I agree.
    Secretary Tillerson. So I think having the opportunity to 
engage, that is the reason I argued for staying in.
    Ms. Titus. And how about the second point about just okay 
with whatever you do in your own country?
    Secretary Tillerson. I think what the President was 
indicating is he is not into government building, or changing 
governments. I think what he is indicating is, in his view, 
mistakes have been made in the past by involving ourselves with 
countries and then expanding our involvement to want to now 
change their culture, change their heritage, change who they 
are, change the way they live their lives.
    And I think what he was saying is there is a lot of 
conflict that can be created when we try to go too far in 
imposing our way of life on others, that we have to recognize 
and respect the history of countries, the history of the 
regions, their culture, and not create new areas of conflict 
just because we think they should be doing things differently. 
I think that is the intent.
    And I think there is a lot of merit in that and I think 
when I reflect on the conflicts around the world and how did we 
get there and why do they exist, a lot of it is grounded in 
these areas. We continue to believe that if we can de-conflict 
areas, bring peace to areas, we have a much better chance of 
engaging on many things like human rights, freedom, democracy, 
which we want to and will continue to promote.
    Ms. Titus. My time is up. I appreciate that. So after we go 
in after the war is over, we don't have any responsibility for 
doing any nation building? That is okay, my time is up.
    Chairman Royce. Francis Rooney of Florida.
    Mr. Rooney. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for your service. Thank you for leaving private industry to 
serve your country.
    As a person who has been in and out of the State Department 
for many years and has had commercial relationships with the 
Agency for International Development, I want to thank you for 
bringing a business-like and pro-taxpayer approach to funding 
the Department.
    What you said is true. It is about what you can accomplish 
and what kind of people you have, not necessarily what you 
spend to get there. For example, like the record reflects, the 
Department has spent over $29 million to subsidize an 
organization you and I know personally, the World Economic 
Forum. I wonder what the taxpayers would think of that.
    I want to applaud you in your budget for scrapping the 
disaster known as the U.S. Institute of Peace. If every 
taxpayer from Florida to California could see that building, we 
would have a revolt on our hands.
    And lastly, I wish you would reconsider the $10 million you 
have in there for the U.N. Human Rights Council. That is on top 
of $17\1/2\ million that we have spent in the last few years to 
try to buy friendship with Israel, that I will tell you, I will 
bet you a steak dinner, is not going to work.
    So I guess I just want to know what can we do, who agree 
with you, to have your back to encourage you to stay tough and 
to reinforce your effort to bring reform, to eliminate wasteful 
spending, and to position the Department to live effectively in 
the 21st century?
    Secretary Tillerson. Well, Congressman, first, thank you 
for the support we already receive from the Congress and the 
input which is really important for us to have an understanding 
of what the priorities are in the minds of the Congress and in 
particular the House because you are closest to the face of the 
American people and I recognize that.
    I think in terms of some of these cuts to international 
organizations, we are looking at those one by one by one and 
really asking ourselves, what is the cost of benefit here? And 
in some areas, we either are going to reform those or we are 
going to withdraw from them. And we actually are using this 
exercise, and everyone is well aware of what we are going 
through here where we are taking a very close look as to what 
do we, the American people, get in return for this investment 
or this funding that we provide. And that is very much not as a 
threat, but as a tool to use so they understand this time this 
is a serious conversation. We need to get to a serious 
conclusion. If you don't want to change, if you don't want to 
reform, that is fine. Just let us know and we will try a 
different approach.
    The Human Rights Council at the U.N. is one that we are 
currently engaged in and Ambassador Haley is directly engaged 
in. She and I have spoken about we are either going to reform 
this thing and make it reflect what it should be reflecting or 
we are going to withdraw our support for it and try to find 
other means that we can approach human rights issues on a 
multi-lateral basis with partners who see it the same way we 
do.
    Mr. Rooney. Thank you, Mr. Secretary. I yield my time.
    Chairman Royce. Thank you. Norma Torres from California 
will be our last speaker.
    Ms. Torres. Thank you, Mr. Chairman. And welcome, 
Secretary. Thank you for staying as long as you have and 
accommodating our tough day today.
    I understand that later this week you are traveling to 
Miami for a conference about security and prosperity in Central 
America, specifically the northern triangle area. I want to 
make you aware that we in Congress have been working very hard 
on a bipartisan way to deal with the crisis we have in this 
area.
    And I want to make sure that you understand that while our 
President may not think that we should be building up other 
governments, our national security is very dependent on the 
democracy and democracy issues within our closest neighbors to 
the south. We have to be very proactive at dealing with the 
very corrupt governments that have become a culture of our 
neighbors. We have to deal with the narcotraffic issues and the 
money laundering that happens in this region because they are 
our partners in our national security.
    So thank you for making a commitment to working there, but 
I also want to make sure that you understand that this is 
important to Congress. We passed this resolution unanimously 
here in Congress.
    The world looks at the United States for leadership on the 
global stage. Unfortunately, the President's words and actions 
have been undermining American leadership. Part of the problem 
is that we don't have a fully staffed, functioning State 
Department. Another problem is that there is a conflict of 
mixed messages that come across when the President tweets and 
you have a different response and his press team has a 
different response.
    Mr. Secretary, my question to you is are the President's 
tweets the official foreign policy of the United States?
    Secretary Tillerson. I am not going to comment extensively 
on the President's tweets. The President has his own means that 
he wishes to communicate through and he communicates a lot of 
different messages with those.
    Ms. Torres. I understand that, sir. But is it an informed 
decision based on facts that he is tweeting out and is this our 
policy, U.S. policy?
    Secretary Tillerson. I am not involved in how the President 
constructs his tweets, when he tweets, why he tweets, what he 
tweets.
    Ms. Torres. It seems to be a game that goes back and forth. 
This is not meant to be a gotcha question. This is simply 
wanting to clarify for other world leaders. I was just on a 
trip to Mexico with a delegation of U.S. Members of Congress 
and part of the insecurity with our closest neighbor to the 
South is the fact that the President puts out tweets and people 
don't know. These leaders don't know if this is informed policy 
and if this is truly how the United States intends to conduct 
business.
    Secretary Tillerson. What I would say with our neighbors in 
Mexico to the South, and you mentioned the Miami conference 
that I will be going to tomorrow to address both economic and 
security issues in the triangle area, this conference is being 
co-sponsored by the State Department, Department of Homeland 
Security, our Mexican counterparts, the Foreign Ministry, and 
the State Minister of Mexico. This is something that came out 
of our Mexico City engagement because we recognize we have a 
common issue in trans-migration that is a problem for Mexico, a 
problem for us.
    And what we are doing and this gets to our approach to the 
budget question and concerns that we are not going to be able 
to carry out our foreign policy objectives. These are some of 
the innovative approaches we are taking. We are bringing the 
Inter-American Bank, the World Bank, we are bringing a number 
of private sector entities to Miami. The Vice President is 
coming to give the keynote address at the lunch, so I think----
    Ms. Torres. Do you know who is not coming? Do you know who 
is not coming and it is not because you did not invite them. 
But the Attorneys General of all three countries are not coming 
simply because their governments think that there is 
instability happening here in the U.S. and they have left them 
out. And I think it is important at this conference, sir, that 
we call them out on that.
    Secretary Tillerson. Well, as you know, a lot of our 
assistance in those three countries is to strengthen law 
enforcement, strengthen the ability of Attorney Generals to 
prosecute, strengthen the courts to make those cases stick on 
corruption in particular.
    We have made progress and the reason we are focusing on the 
triangle area is because we made progress. We think we are very 
close to pushing this over the hump, so to speak, and we want 
to bring in a lot of others to help with this so that we aren't 
doing it alone.
    Chairman Royce. Well, I want to thank the Secretary for 
this time with the committee. This has been a challenging day 
in Congress. It is a tough world out there. Excuse me, we are 
at 1:30 and I made my commitment that we would adjourn.
    Mr. Schneider. I appreciate that and thank the
    Secretary for speaking here today and sharing your time so 
generously. On behalf of those of us who were not able to ask 
questions, I request that we may submit them to you and get a 
response in writing.
    Chairman Royce. Absolutely.
    Secretary Tillerson. I look forward to any other questions 
and I am sorry we were unable to have a dialogue with each of 
you as well. Again, I understand the circumstances entirely.
    Chairman Royce. And as I said at the beginning of the 
hearing, that absolutely is something we will do and I do want 
to convey on behalf of all of the members here, the committee 
looks forward to working with you, Mr. Secretary, on many 
policies, including your reorganization efforts. You have heard 
our concerns and we look forward to receiving your legislative 
proposals for the Department's reorganization once they are 
ready.
    Again, I thank you for being prepared to respond to the 
other members who did not get an opportunity here today. I 
thank you and we stand adjourned.
    [Whereupon, at 1:33 p.m., the committee was adjourned.]

                                    
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
